<html>
<title> - ``STAND YOUR GROUND'' LAWS: CIVIL RIGHTS AND PUBLIC SAFETY IMPLICATIONS OF THE EXPANDED USE OF DEADLY FORCE</title>
<body><pre>[Senate Hearing 113-626]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-626

``STAND YOUR GROUND'' LAWS: CIVIL RIGHTS AND PUBLIC SAFETY IMPLICATIONS 
                  OF THE EXPANDED USE OF DEADLY FORCE

=======================================================================


                                HEARING

                               before the

                     SUBCOMMITTEE ON CONSTITUTION
                     ,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                       COMMITTEE ON THE JUDICIARY
                       
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                       TUESDAY, OCTOBER 29, 2013

                               ----------                              

                          Serial No. J-113-35

                               ----------                              

         Printed for the use of the Committee on the Judiciary

``STAND YOUR GROUND'' LAWS: CIVIL RIGHTS AND PUBLIC SAFETY IMPLICATIONS



                                                        S. Hrg. 113-626

``STAND YOUR GROUND'' LAWS: CIVIL RIGHTS AND PUBLIC SAFETY IMPLICATIONS 
                  OF THE EXPANDED USE OF DEADLY FORCE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CONSTITUTION,
                     
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                       
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, OCTOBER 29, 2013

                               __________

                          Serial No. J-113-35

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
                                ________
                                
                      U.S. GOVERNMENT PUBLISHING OFFICE 

94-124 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
         

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
             Joseph Zogby, Chief Counsel and Staff Director
       Scott Keller, Republican Chief Counsel and Staff Director
                                 ------                                

    Subcommittee on the Constitution, Civil Rights and Human Rights

                    DICK DURBIN, Illinois, Chairman
AL FRANKEN, Minnesota                TED CRUZ, Texas, Ranking Member
CHRISTOPHER A. COONS, Delaware       LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      JOHN CORNYN, Texas
MAZIE HIRONO, Hawaii                 ORRIN G. HATCH, Utah
                 Brooke Bacak, Democratic Chief Counsel
                   Roy Chip, Republican Chief Counsel
                   
                   
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....     1
    prepared statement...........................................    37
Cruz, Hon. Ted, a U.S. Senator from the State of Texas...........     3
Cornyn, Hon. John, a U.S. Senator from the State of Texas, 
  prepared statement.............................................    40

                               WITNESSES

Witness List.....................................................    35
Hon. Marcia L. Fudge, a Representative in Congress from the State 
  of Ohio........................................................     6
Hon. Luis V. Gutieerrez, a Representative in Congress from the 
  State of Illinois..............................................     7
Hon. Louie Gohmert, a Representative in Congress from the State 
  of Texas.......................................................     9
Sybrina Fulton, Miami, Florida...................................    11
    prepared statement...........................................    42
Ronald S. Sullivan, Jr., Clinical Professor of Law, Director, 
  Criminal Justice Institute, and Director, Trial Advocacy 
  Workshop, Harvard Law School, Cambridge, Massachusetts.........    12
    prepared statement...........................................    47
David LaBahn, President and Chief Executive Officer, Association 
  of Prosecuting Attorneys, Washington, DC.......................    14
    prepared statement...........................................    65
Ilya Shapiro, Senior Fellow in Constitutional Studies, Cato 
  Institute, Washington, DC......................................    17
    prepared statement...........................................    71
John R. Lott, Jr., Ph.D., President, Crime Prevention Research 
  Center, Swarthmore, Pennsylvania...............................    19
    prepared statement...........................................    78
Lucia Holman McBath, Atlanta, Georgia............................    21
    prepared statement...........................................    94

                            C O N T E N T S
                            
                            
                               QUESTIONS

Questions submitted by Senator Dianne Feinstein for David LaBahn.    96

                                ANSWERS

Responses of David LaBahn to questions submitted by Senator 
  Feinstein......................................................    97

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Rashad Robinson, Executive Director, ColorOfChange.org, Oakland, 
  California, statement..........................................    99
Common Cause, Washington, DC, statement..........................   104
The Center for Media and Democracy, Madison, Wisconsin, Lisa 
  Graves, Executive Director, statement..........................   105
American Legislative Exchange Council (ALEC), Arlington, 
  Virginia, letter to Senator Durbin.............................   143
American Legislative Exchange Council, Arlington, Virginia, 
  statement......................................................   163
Coalition letter, August 30, 2013................................   164
Center for Competitive Politics, Alexandria, Virginia, David 
  Keating, President, letter.....................................   166
Elijah E. Cummings, U.S. House of Representatives, Washington, 
  DC, October 29, 2013, letter to Senator Durbin.................   169
American Academy of Pediatrics, Washington, DC, September 17, 
  2013, statement................................................   171
American Civil Liberties Union (ACLU), Washington, DC, September 
  17, 2013, statement............................................   175
Amnesty International USA, London, England, United Kingdom, 
  Steven W. Hawkins, Executive Director, statement...............   180
Alabama Policy Institute, Birmingham, Alabama, Gary Palmer, 
  President, August 21, 2013 statement...........................   185
American Nurses Association, Silver Spring, Maryland, September 
  17, 2013, statement............................................   187
America's Essential Hospitals, Washington, DC, Bruce Siegel, MD, 
  President and CEO, September 16, 2013, statement...............   190
Academic Pediatric Association, McLean, Virginia, September 17, 
  2013, statement................................................   192
Arizona Coalition to Prevent Gun Violence, statement.............   194
CeaseFirePA, Pennsylvania, September 17, 2013, statement.........   200
Center of the American Experiment, Golden Valley, Minnesota, 
  Mitch Pearlstein, Ph.D and Kim Crockett, J.D., August 30, 2013, 
  letter.........................................................   205
Chicago Sun-Times, September 27, 2013, editorial.................   206
Coalition, October 29, 2013, letter to Senator Durbin............   208
CREDO Action, Jordan Krueger, Campaign Manager, September 16, 
  2013, letter and appendix......................................   209
Congressional Research Service, Washington, DC, William J. 
  Krouse, Specialist in Domestic Security and Crime Policy, 
  September 16, 2013, letter.....................................   218
Coalition to Stop Gun Violence, Joshua Horwitz, Executive 
  Director, September 17, 2013, statement........................   224
Dream Defenders, Ahmad Abuznaid, Legal and Policy Director, 
  October 28, 2013, statement....................................   229
Franciscan Action Network, Washington, DC, statement.............   235
Howard University School of Law, Howard Law Students, September 
  17, 2013, letter...............................................   236
Illinois Council Against Handgun Violence, Chicago, Illinois, 
  September 17, 2013, statement..................................   239
Iowans for Gun Safety, Des Moines, Iowa, September 16, 2013, 
  statement......................................................   241
Institute for Policy Innovation, Lewisville, Texas, Tom 
  Giovanetti, President, August 13, 2013, letter.................   242
John M. Phillips, Attorney for the family of Jordan Davis, 
  statement......................................................   244
One Million Hoodies Movement for Justice, Amy Frame, National 
  Legislative Director, October 29, 2013, statement..............   250
Law Center to Prevent Gun Violence, San Francisco, California, 
  September 17, 2013, statement..................................   254
The Lawyers' Committee for Civil Rights Under Law, October 29, 
  2013, statement................................................   262
The Leadership Conference on Civil and Human Rights, Washington, 
  DC, Wade Henderson, President and CEO, October 29, 2013, letter   271
Brady Center to Prevent Gun Violence, Jonathan E. Lowy, Director, 
  Legal Action Project, October 29, 2013, statement..............   274
Million Mom March, Virginia Chapters, Martina Leinz, President, 
  Northern Virginia Chapter, September 13, 2013, letter..........   281
MomsRising, Kristin Rowe-Finkbeiner, Executive Director and Co-
  Founder, September 17, 2013, statement.........................   283
NAACP, Hilary O. Shelton, Director, NAACP Washington Bureau, 
  Washington, DC, October 29, 2013, statement....................   287
``Florida `Stand Your Ground' Law Yields Some Shocking Outcomes 
  Depending on How Law Is Applied,'' Tampa Bay Times, June 1, 
  2012, article..................................................   295
NAACP Annual Convention, Eric H. Holder, Jr., U.S. Attorney 
  General, July 16, 2013, speech.................................   302
NAACP Legal Defense and Educational Fund, Inc., Washington, DC, 
  Sherrilyn Ifill, President and Director-Counsel, October 29, 
  2012, statement................................................   308
National Action Network, Rev. Al Sharpton, President and Founder, 
  statement......................................................   317
National Taxpayers Union, Alexandria, Virginia, Duane Parde, 
  President, August 22, 2013, letter.............................   324
The Newtown Action Alliance, Newtown, Connecticut, September 17, 
  2013, statement................................................   325
New Mexicans for Gun Safety, Paul Schmitt, statement.............   328
New Yorkers Against Gun Violence, Brooklyn, New York, October 29, 
  2013, statement................................................   329
Phillip Atiba Goff, Ph.D., Tenure-Track Faculty, University of 
  California, Los Angeles (UCLA), statement......................   333
Protest Easy Guns, September 14, 2013, statement.................   338
John Roman, Senior Fellow, Urban Institute, Washington, DC, 
  statement......................................................   339
Institute for Policy Innovation, Bartlett D. Cleland, Lewisville, 
  Texas, August 31, 2013, letter.................................   343
National Urban League, New York City, October 29, 2013, statement   348
Robert J. Spitzer, Ph.D., Chair, Political Science Department, 
  SUNY Cortland, New York, statement.............................   354
Sarah Clements, student, Newtown, Connecticut, statement.........   366
Hon. John Cornyn, a U.S. Senator from the State of Texas, 
  statement......................................................   368
The Society for the Psychological Study of Social Issues (SPSSI), 
  Washington, DC, statement......................................   372
States United to Prevent Gun Violence, Barbara Hohlt, contact, 
  New York, New York, statement..................................   376
Moms Demand Action for Gun Sense in America, statement...........   381
Texas Public Policy Foundation, Dr. Wendy Gramm, Austin, Texas, 
  August 12, 2013, letter........................................   384

 
``STAND YOUR GROUND'' LAWS: CIVIL RIGHTS AND PUBLIC SAFETY IMPLICATIONS 
                  OF THE EXPANDED USE OF DEADLY FORCE

                       TUESDAY, OCTOBER 29, 2013

    U.S. Senate, Subcommittee on the Constitution, 
                    Civil Rights, and Human Rights,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., in 
Room SH-216, Hart Senate Office Building, Hon. Richard J. 
Durbin, Chairman of the Subcommittee, presiding.
    Present: Senators Durbin, Blumenthal, Hirono, Cruz, Graham, 
and Cornyn.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Chairman Durbin. This hearing of the Subcommittee on the 
Constitution, Civil Rights, and Human Rights will come to 
order.
    Today's hearing is entitled `` `Stand Your Ground' Laws: 
Civil Rights and Public Safety Implications of the Expanded Use 
of Deadly Force.'' We have a large audience in the room today. 
At the outset, I want to note that the Senate rules prohibit 
any signs of approbation or disapprobation, which would include 
outbursts, clapping, or demonstrations.
    If there is someone who wishes to be witness to this 
hearing and cannot attend it in this room, there is another 
room available, Room 226 in the Dirksen Building.
    I will begin by providing opening remarks and then give my 
Ranking Member, Senator Cruz, an opportunity before we turn to 
our witnesses.
    The debate over ``stand your ground'' laws raises 
fundamental questions about self-defense in the United States 
of America.
    In recent years, we have seen a dramatic increase in laws 
expanding the situations in which a person can legally use 
deadly force in response to a perceived threat. Florida passed 
the first of this new wave of ``stand your ground'' laws in 
2005.
    Prior to 2005, Florida law held that a person outside his 
home could not use deadly force and then claim self-defense if 
the person could have safely avoided the confrontation. This 
``duty of safe retreat'' sought to prevent public disputes from 
escalating into violence.
    But the gun lobby pushed to change Florida's law so people 
could shoot someone who threatened them without first trying to 
avoid a confrontation.
    Florida was not the first State to adopt this ``stand your 
ground'' principle, but Florida's 2005 law expanded the 
principle in several dramatic new ways:
    First, the law grants criminal and civil immunity for uses 
of deadly force in ``stand your ground'' situations.
    Second, it replaces a defendant's burden of proving 
reasonableness with a presumption of reasonableness when the 
defendant shoots anyone who intrudes upon his home, porch, or 
vehicle.
    Third, it even allows the use of deadly force when a threat 
is not imminent.
    The gun lobby wanted to spread Florida's law across the 
Nation, so the National Rifle Association went to ALEC, the 
American Legislative Exchange Council, and asked for their 
help.
    Now, ALEC is an organization that brings corporate 
lobbyists and State legislators together for conferences. They 
draft model bills, and then they work to get them enacted.
    In 2005, ALEC adopted model legislation that was nearly 
identical to Florida's law. They then began promoting it in 
statehouses across the country. Within a year, 13 more States 
passed similar laws. Today 25 States, not counting Florida, 
have passed a law based in whole or in part on the ALEC model.
    ALEC called the enactment of these laws one of ``ALEC's 
successes.'' CNN described ALEC as being ``behind the spread of 
stand your ground laws.'' The Wall Street Journal said ALEC was 
a ``key advocate'' for them.
    Now that ALEC-style ``stand your ground'' laws are in 
effect for over half of the United States, we are seeing their 
national impact when it comes to public safety and civil 
rights. This is what we will learn from our witnesses today:
    These ``stand your ground'' laws have led to increases in 
homicides and firearm injuries--including 600 additional 
homicides per year--with no deterrent effect on crimes like 
robbery or assault. This point was made in several studies, 
including recent research from Texas A&M University.
    Second, these ``stand your ground'' laws have allowed 
shooters to walk free in shocking situations--shootouts between 
rival drug gangs, drug deals gone bad, and more. This point 
will be made effectively by the testimony of David LaBahn, 
president and CEO of the Association of Prosecuting Attorneys.
    Third, in some devastating cases, the laws have emboldened 
those who carry guns to initiate confrontations which have 
ended up killing unarmed children. The testimonies of Sybrina 
Fulton and Lucia McBath about the devastating losses of their 
sons make that point more effectively than I ever could.
    Finally, these ``stand your ground'' laws increase racial 
disparities in our criminal justice system. One study found 
that in ``stand your ground'' States nearly 17 percent of 
homicides involving white shooters and black victims were ruled 
justified, compared to one percent of homicides with black 
shooters and white victims. At my request, the Congressional 
Research Service analyzed FBI data on justifiable homicides 
before and after the 2005 wave of ``stand your ground'' laws 
and found that racial disparities clearly increased. I will be 
putting this CRS memo in the record.
    [The information referred to appears as a submission for 
the record.]
    Chairman Durbin. It is clearly time for ``stand your 
ground'' laws to be carefully reviewed and reconsidered. 
Whatever the motivation behind them, it is clear that these 
laws often go too far in encouraging confrontations that 
escalate into deadly violence. They are resulting in 
unnecessary tragedies, and they are diminishing accountability 
under our justice system.
    I am pleased that the efforts to reconsider these laws are 
now underway. Earlier this month, one of the legislators who 
drafted Florida's law joined with some of its chief opponents 
in a bipartisan effort to change the law. Changes have been 
passed in a State Senate Committee in Florida.
    There is more that needs to be done. But we seem to be 
moving past the question of whether ``stand your ground'' laws 
should be fixed. Now we should be looking at the best way to 
fix them. I urge other States that have ``stand your ground'' 
laws to revisit them as well.
    To the extent that ``stand your ground'' laws were passed 
based on the ALEC model, I would note that few who are 
connected with ALEC appear wedded to that model today.
    I reached out to every company and organization that has 
been publicly listed as a member or sponsor of ALEC since 2005, 
simply asking them, ``Do you support the `stand your ground' 
bill? '' One hundred forty of them responded; only one said 
yes. Even ALEC, through a Connecticut State representative and 
its Chairman, Mr. Piscopo, made a statement to the press that 
ALEC no longer has a policy on ``stand your ground'' laws.
    It is also important that Congress review ``stand your 
ground'' laws because of the way proposed federal legislation 
implicates those laws.
    Just this past April, 57 Senators voted for a gun lobby 
amendment that would allow a person who receives a concealed-
carry permit in one State to carry his gun in every State--even 
if the person would be disqualified from getting a permit in 
other States because of criminal convictions, inadequate 
training, or other factors.
    Congress should think carefully about how proposals like 
this would mix with ``stand your ground'' laws.
    Today we have before us a distinguished lineup of witnesses 
who will talk about the impact of ``stand your ground'' laws on 
public safety, civil rights, and American families, and ways 
that we should work to fix them. I look forward to their 
testimony.
    [The prepared statement of Senator Durbin appears as a 
submission for the record.]
    I now recognize the Ranking Republican Member, Senator 
Cruz.

  OPENING STATEMENT OF HON. TED CRUZ, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Cruz. Thank you, Mr. Chairman. Thank you to the 
witnesses who have come here this morning. Thank you to 
everyone who has come to join this hearing on a very important 
topic. I would like to talk about three different issues 
concerning ``stand your ground'' legislation.
    The first is the difference between serious efforts to stop 
violent crime and efforts to advance a political agenda. I have 
spent much of my adult life working in law enforcement and 
emphatically agree that law enforcement should be vigorous 
going after violent crime, protecting the innocent, protecting 
those who are preyed upon by violent criminals. Indeed, one of 
my most significant criticisms of this administration's 
enforcement of justice is that they have not made prosecuting 
gun crimes a priority.
    In 2010, over 48,000 fugitives, felons, and other 
prohibited purchasers attempted to illegally purchase a 
firearm, and yet out of over 48,000, this administration 
prosecuted only 44 of them. In my view, that is utterly 
indefensible. If you have felons and fugitives attempting to 
purchase illegal firearms, we should be going after, 
investigating, and prosecuting each of those cases.
    Let me reiterate. Out of over 48,000, this Justice 
Department prosecuted only 44.
    Likewise, the prosecution of violent gun crimes has dropped 
significantly from a high of over 11,000 in 2004 to a low in 
2012 of 7,774, which is a 29-percent decline. If we were to put 
action to all of the rhetoric given about stopping violent 
crime, we would again put priorities to prosecuting those who 
commit crimes with guns.
    Unfortunately, there are many in Washington who seem more 
driven by advancing a political agenda than actually putting in 
place common-sense steps to stop violent crime.
    That leads to the second point I want to make, which is 
that in our Federalist system, criminal law is primarily given 
to the States to enforce, and State self-defense law is not in 
our constitutional system the responsibility of the Federal 
Government. The Federal Government does not have the 
jurisdiction, does not have the constitutional authority to 
determine what the substantive criminal law should be in each 
of our 50 States. And, indeed, it is quite fitting with the 
Founders' design that each of those 50 States would make 
different judgments, different decisions based on the values 
and mores of their citizens. And so that does raise the 
question as to the purpose of this hearing. If it is not within 
Congress' jurisdiction to legislate substantive State criminal 
law, it raises whether there may perhaps be a broader political 
agenda behind the hearing instead.
    The third point I would make is that self-defense is a 
bedrock liberty of every American, and I would note this is not 
a new concept. Indeed, the U.S. Supreme Court in District of 
Columbia v. Heller stated, ``The inherent right of self-defense 
has been central to the Second Amendment right.''
    Now, some who get their news from the modern news media may 
believe that was a new creation of the modern Court. I would 
note that that idea has been around from the founding of this 
Nation. Indeed, Justice Harlan for a unanimous Supreme Court in 
1895 stated the following: ``He was not obliged to retreat, nor 
to consider whether he could safely retreat, but was entitled 
to stand his ground, and meet any attack upon him with a deadly 
weapon, in such a way and with such force as, under all the 
circumstances, he, at the moment, honestly believed, and had 
reasonable grounds to believe, were necessary to save his own 
life, or to protect himself from great bodily injury.''
    The Declaration of Independence begins with the right of 
life, liberty, and the pursuit of happiness given by our 
Creator to each of us. And if an individual is confronted by a 
violent aggressor, the right of self-defense is an inherent 
right in each of us. And the notion that critics of these laws 
put forth that if you are attacked on the street by a violent 
attacker, you are obliged to turn and run rather than to defend 
yourself is a notion that is contrary to hundreds of years of 
our jurisprudence and to the rights that protect all of us.
    I would note also that the Chairman suggested a racial 
disparity. Look, the problem of violent crime in this country 
is enormous, and tragically, minority communities bear much of 
the cost of violent crime. Minorities find themselves at times 
aggressors, but often victims of violent crime. And I would 
note, in Florida, the data show that African American 
defendants have availed themselves of the ``stand your ground'' 
defense more frequently than have Anglo defendants.
    According to press reports, 55 percent of African American 
defendants have successfully invoked the ``stand your ground'' 
defense in prosecutions compared to a 53-percent rate in the 
Anglo population.
    This is not about politicking. This is not about inflaming 
racial tensions, although some might try to use it to do that. 
This is about the right of everyone to protect themselves, to 
protect their family. And I will tell you, given a choice in a 
confrontation between a violent aggressor attacking an innocent 
civilian, I for one will always, always, always stand with the 
innocent civilian.
    Now, we have a system of justice to determine if that is 
the facts in any particular circumstance. But, notably, the 
``stand your ground'' defense only applies when it is a violent 
aggressor attacking an innocent defender. If it is not, the 
defense does not apply. So this is a rule that only applies to 
protect innocent victims from violent aggressors, and I find 
the notion that we say if you and your family are attacked on 
the public street, you do not have the right to defend 
yourself, I find that an astonishing proposition and one that I 
certainly hope Members of the U.S. Senate will not advocate.
    Chairman Durbin. We will turn to our first witness panel. I 
want to welcome Congresswoman Marcia Fudge, Congressman Luis 
GutieE1rrez, and Congressman Louie Gohmert. Thank you for being 
here. You will each have five minutes to make a statement, and 
if you have a written statement, we will include it in the 
record.
    The first person to speak is Congresswoman Marcia Fudge. 
She represents the 11th Congressional District of Ohio, 
currently serving her third term. In 2012, Congresswoman Fudge 
was unanimously elected by her colleagues and serves as the 
Chair of the Congressional Black Caucus in the 113th Congress. 
She is a Member of the House Committee on Agriculture, where 
she is Ranking Member on the Subcommittee on Department 
Operations Oversight, and the Committee on Education and 
Workforce.
    Congresswoman Fudge, thank you for being here today, and 
please proceed.

STATEMENT OF HON. MARCIA L. FUDGE, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Representative Fudge. Thank you very much, and good 
morning. Thank you, Chairman Durbin and Ranking Member Cruz.
    I would just say that it is interesting that the Ranking 
Member believes in State rights when it favors his position. 
You cannot have it both ways. Either the Justice Department is 
over prosecuting persons who buy guns illegally in States, and 
if they are, then they should also be over ``stand your 
ground'' laws.
    I would like to focus on three issues that have serious 
implications to the public safety of our country: ``stand your 
ground'' laws, concealed-carry laws, and racial profiling.
    On February 26, 2012, a young man lost his life, in my 
opinion, due to racial profiling. Earlier this year, Trayvon 
Martin's killer, George Zimmerman, escaped the grip of justice 
because of Florida's concealed-carry and ``stand your ground'' 
laws.
    The three issues that I highlight today all manifest 
themselves in the senseless death of too many young men, 
including Jordan Davis, who was killed for playing music too 
loud in his car. Trayvon and Jordan did not ask to be martyrs. 
The American legal system made them martyrs.
    I thank Sybrina Fulton and Lucia McBath for being here 
today. Your strength is inspiring.
    I fully understand the right to defend oneself from 
violence as an established principle in our legal system. 
However, ``stand your ground'' laws eliminate all 
responsibility to retreat and peacefully end an incident. These 
laws permit and, quite frankly, encourage individuals to use 
deadly force even in situations where lesser or no physical 
force would be appropriate.
    At the urging of ALEC and the NRA, the first ``stand your 
ground'' law was enacted in Florida in 2005. Since then, 22 
other States have enacted similar laws. The NRA and ALEC 
actively lobbied States to lower the personal liability and 
social responsibility for those who carry firearms. Ultimately, 
this effort fosters a Wild West environment in our communities 
where individuals play the role of judge, jury, and 
executioner.
    In my home State of Ohio, House bill 203 would expand the 
concealed-carry law to permit the use of lethal force wherever 
an individual is legally permitted to be while removing the 
duty to retreat. This change to current law would bring Ohio in 
line with other ``stand your ground'' States.
    Proponents of ``stand your ground'' laws often allege that 
these laws deter crime. However, the opposite is true. 
According to a study by the University of Texas A&M, States 
with ``stand your ground'' laws have seen an eight percent 
increase in homicides. The enforcement of ``stand your ground'' 
laws too often relies on the decisions of those with cultural 
biases on whether a person's life is in danger.
    Not surprisingly, these decisions have had a disparate 
impact on African Americans. The Urban Institute's Justice 
Policy Center found that in ``stand your ground'' States, 35.9 
percent of shootings involving a white shooter and a black 
victim are found to be justified. Only 3.4 percent of cases 
involving a black shooter and a white victim are considered 
justifiable self-defense. These numbers should make all of us 
uncomfortable, Mr. Chairman.
    Racial profiling continues to make communities of innocent 
individuals fear a system designed to protect them. Under New 
York's unconstitutional stop-and-frisk policy, more than 90 
percent of all those stopped by police were either black or 
Latino, even though these groups only make up 52 percent of the 
city's population.
    Given the underlying taint of racial profiling in both our 
culture and criminal justice system, it is troubling to see 
more States trend toward enacting ``stand your ground'' laws. 
The Center for American Progress' report, ``License to Kill,'' 
shows the intersection between ``stand your ground'' laws and 
weak State gun permitting laws. While every State has 
concealed-carry laws, they differ on eligibility requirements. 
There must be a strong, uniform standard to allow an individual 
to carry a deadly weapon.
    Weak concealed-carry standards combined with ``stand your 
ground'' laws and racial profiling are a recipe for danger. We 
in Congress must continue to work with the Department of 
Justice to monitor and evaluate the impact of these three 
issues. And until these unjust and inherently biased laws are 
repealed, we have a responsibility to advocate and to educate.
    Our work will not be complete until we ensure that no one 
has to live with the fear of death based on his race or his age 
or a death that is justified under ``stand your ground'' laws. 
I look forward to the day when every American can live knowing 
that the arc of justice bends toward fair and unbiased laws.
    I yield back.
    Chairman Durbin. Thank you, Congresswoman.
    Next up is my colleague, Congressman Luis Gutieerrez, from 
Illinois. He is now in his 11th term representing the Illinois 
Fourth Congressional District, Chair of the Congressional 
Hispanic Caucus, Immigration Task Force, and leader in an 
effort to pursue comprehensive immigration reform. In addition, 
he serves on the House Judiciary Committee and the House 
Permanent Select Committee on Intelligence.
    Congressman Gutieerrez, thank you for joining us today.

   STATEMENT OF HON. LUIS V. GUTIEERREZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Representative Gutieerrez. Thank you, Chairman Durbin and 
Ranking Member Cruz. Thank you for the opportunity to testify 
on this extremely important issue.
    I extend my condolences to the families who lost loved 
ones. Ms. Fulton and Ms. McBath, I am deeply sorry for your 
loss, and I appreciate your presence here today. And as one dad 
to another, I say to Mr. Martin that I, too, feel your pain, 
and thank you for being here.
    As a parent, I was shocked by the death of Trayvon Martin, 
and the fact that no one was even arrested after it happened, 
an unarmed teenager was pursued by an armed adult in the 
neighborhood where he was staying, shot to death and nobody was 
convicted of a crime.
    I respect the verdict and the judicial process, but I have 
deep concerns about the expansion of self-defense laws, the 
proliferation of guns, the weakening of gun laws, and how this 
affects public safety.
    The case of Trayvon Martin, like the Sandy Hook massacre, 
should have sparked a response from our Nation's lawmakers. Mr. 
Chairman, I, too, requested hearings on this matter as a Member 
of the House Judiciary Committee but received no response from 
the Chairman.
    Examining the ``stand your ground'' laws and whether they 
make our communities safer or less safe is critically important 
as part of a larger examination of the impact of gun violence 
on America. Sadly, we lose a classroom full of kids every day 
to gun violence across this country, and there have been no 
hearings in the House. So, Senator Durbin, I applaud you for 
your leadership and for holding this hearing.
    The fundamental problem is Americans are so afraid of other 
Americans that they feel they must arm themselves. The gun 
lobbyists are pursuing to reshape our laws to make this 
practice more socially and legally acceptable. Special 
interests are relaxing our laws, resulting in an escalation of 
the deadliness of these confrontations.
    I have never believed that allowing more guns will mean 
less gun violence. We must confront the deadly combination of 
rampant fear of one another and easily available guns. We must 
examine ``shoot first'' or ``stand your ground'' laws in this 
context.
    In 22 States, ``stand your ground'' laws expand the use of 
deadly force outside your home to any place you have a legal 
right to be. We seem to have made it a decision that it is 
acceptable to use a weapon on another human, but have failed to 
have a serious conversation about under what circumstances. 
Under ``shoot first'' laws, a person is presumed to have a 
reasonable fear of death that justifies the use of deadly force 
in many places. In some States, there is also immunity from 
civil liability, criminal prosecution, and even arrest.
    I grew up in Chicago in a very different era. When scuffles 
broke out, it was up to us to protect ourselves. But no one had 
Glocks and no one had AR-15s back then. New concealed-carry 
laws and ``shoot first'' laws are a recipe for more dead sons 
and daughters.
    The GAO estimated last year that approximately eight 
million permits for concealed weapons were issued in the United 
States. Illinois has become the 50th State to allow concealed 
weapons. As a father, and as a grandfather of a 10-year-old, I 
strongly oppose proposals to allow national reciprocity for 
concealed weapon laws issued by States with fewer safeguards 
than those in my own State of Illinois where my grandson 
resides.
    For the safety of all of our loved ones, we must take every 
reasonable precaution to ensure that individuals who are 
violent or a public threat do not have easy access to weapons. 
That is why I have introduced legislation this year to ban 
cheap junk guns used disproportionately in the commission of 
crimes.
    But legislation is only part of the solution. In Chicago, 
we continue to develop strategies to reduce violence and target 
at-risk youth. Teaching our kids how to resolve conflicts 
without pulling a trigger makes more sense. Instead, the gun 
lobby is pursuing ``shoot first'' laws and claiming they deter 
crime. The truth is these laws increase murder rates. 
Researchers at Texas A&M found ``shoot first'' States have an 
eight percent increase in homicides relative to other States, 
translating to 600 additional parents, children, and friends 
killed every year.
    Moreover, ``shoot first'' laws exacerbate the mistrust of 
the police among minority communities. There is a widespread 
feeling in poor and working-class communities that the police 
are there to protect people from them, not to protect them from 
other people. That trust further deteriorates under ``shoot 
first'' laws when communities question whether racial 
stereotypes or biases will enter into a subjective 
determination that someone had a reasonable fear.
    When we allow people to take the law into their own hands, 
when police hesitate to make an arrest when a young person of 
color is killed, or if we turn cops into immigration agents, 
like the House Judiciary Committee's proposal in the SAFE Act, 
public safety suffers.
    Engaging in this dialogue is a critical first step. 
Congress should guide this discussion, carefully monitor the 
application of these laws, and watch out for racial 
disparities.
    I want to thank Senator Durbin for his leadership and for 
his service to Illinois and for the opportunity to testify. And 
last, Mr. Chairman, I would ask that the ``End `stand your 
ground' in Illinois'' editorial in the Chicago Sun-Times be 
entered into the record.
    Chairman Durbin. Without objection, it will be added to 
your testimony. Thank you, Congressman Gutieerrez.
    [The editorial appears as a submission for the record.]
    Chairman Durbin. Our next witness is Congressman Louie 
Gohmert. He represents the First Congressional District of 
Texas. He is in his fifth term in the House. He is a Member of 
the House Judiciary Committee where he serves as Vice Chair on 
the Subcommittee on Crime, Terrorism, and Homeland Security. He 
is also a Member of the Committee on Natural Resources.
    Congressman Gohmert, please proceed.

 STATEMENT OF HON. LOUIE GOHMERT, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Representative Gohmert. Thank you, Chairman Durbin, Ranking 
Member Cruz, Members of the Committee. I am before you as 
someone who has a heavy heart for every victim of crime, 
especially violent crime. I come before you today as someone 
who has been involved in successfully prosecuting murder. I 
have defended a man who happened to be African American of 
murder in which he was acquitted using self-defense, having 
killed a naked man.
    I have successfully appealed appropriately and have gotten 
a capital murder conviction reversed in which the defendant 
happened to be African American.
    I have presided over many murder trials as a judge. As a 
chief justice, I have reviewed murder trials on appeal. So I am 
somewhat familiar with the process involved with murder and 
assault trials.
    Though I have won an award for a Law Review article I 
wrote, I have won Baylor Law School's moot court competition, 
won Best Brief Award along with others, perhaps the highest 
commendation I have ever had came from now-Senator Ed Markey, 
who, after a House hearing, approached me and said he wanted to 
pay me a compliment, that if he were ever arrested, he wanted 
me to defend him. And he said that was a compliment, and I took 
it as such.
    Now, regarding the issue of self-defense, as my friend 
Senator Cruz pointed out, it was in 1895, Beard v. United 
States, the Court said, Justice Harlan, the person ``was not 
obliged to retreat, nor to consider whether he could safely 
retreat, but was entitled to stand his ground . . . .'' This 
concept has been around for a long time.
    Some feel that there should be a duty to retreat before 
deadly force can be utilized for self-protection. But some have 
found that, without a duty to retreat, there are fewer 
assaultive crimes with due deference to Texas A&M. In most 
places, a deadly weapon does not necessarily have to be present 
if the victim is in reasonable fear of death or serious bodily 
harm, worded in different ways.
    That idea of being able to stand one's ground without first 
retreating has been combined as part of the law of self-defense 
in at least 22 States. It might also be noted that these 22 are 
not necessarily States in which runaway murder rates abound, as 
they do in some locations where the self-defense is more 
limited or where gun control laws are most extreme, as in 
Washington, DC, or Chicago, Illinois.
    Florida and other States have used their right to be the 
source of police powers, which was secured to them under the 
Tenth Amendment of the Constitution, because those powers were 
not delegated to the Federal Government and were, therefore, 
reserved to the States and the people. That is why States have 
the right to have their own penal codes, to enact their own 
laws of self-defense, which laws get tweaked from time to time 
as necessary.
    In some States, the doctrine of protecting one's home 
affords more protection to the homeowner than in other States. 
In some States, one may stand his ground without retreating 
wherever he is lawfully located. However, unless the Uniform 
Code of Military Justice or other federal nexus is clearly 
present, all of this is up to the State legislatures to make 
these determinations as they see fit for their citizens. 
Without a federal nexus, such laws are up to the individual 
States.
    The idea that States are less intelligent or less able to 
discern their citizens' needs is a mistake of federal 
proportions. Only a Congress that has authorized the spending 
of over 150 percent more than it brings in would have the nerve 
to tell State governments that balance their budget every year 
that the State does not know how to properly govern their 
people. With only a few exceptions, most States are doing quite 
well with legislating in the area of criminal law without our 
interference. It is only the Federal Government that has an 
estimated 5,000 or so criminal laws that have overcriminalized 
this country. Hopefully when I am here again for a hearing, we 
can fervently work toward eliminating or correcting the 
thousands of federal laws that have sometimes put people behind 
bars for things that most Americans have no clue would be 
against the criminal law.
    So, Senators, I humbly implore you, let us leave State 
criminal law to the consideration of the State legislatures, 
though we in Congress would probably be well served to take 
advice from the States that are still solvent.
    Thank you.
    Chairman Durbin. Thank you, Congressman Gohmert, and I want 
to thank your colleagues, Congressman Gutierrez and 
Congresswoman Fudge, for their testimony as well. We appreciate 
your being here today, and we are going to proceed to the 
second panel as you depart. Thank you again.
    Chairman Durbin. I am sorry. If I can ask you all please to 
stand, it is customary to administer the oath before this 
Committee. If you would please raise your right hand. Do you 
affirm that the testimony you are about to give before the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Ms. Fulton. I do.
    Mr. Sullivan. I do.
    Mr. LaBahn. I do.
    Mr. Shapiro. I do.
    Mr. Lott. I do.
    Ms. McBath. I do.
    Chairman Durbin. Thank you. Let the record reflect that the 
witnesses, all witnesses on the second panel, answered in the 
affirmative.
    Each witness will be given five minutes for an opening 
statement. Of course, any written statement they would like to 
submit for the record will be admitted without objection.
    Our first witness is Sybrina Fulton. Ms. Fulton is the 
mother of Trayvon Martin. Her son was shot and killed at the 
age of 17 on the night of February 26, 2012, in Sanford, 
Florida. Sybrina and Trayvon's father, Tracy, have co-founded 
the Trayvon Martin Foundation to create awareness of how 
violent crime impacts the families of victims and to provide 
support and advocacy for those victims. Ms. Fulton is a 
graduate of Florida Memorial University.
    Thank you so much for coming here today, Ms. Fulton, and 
please proceed with your testimony.

          STATEMENT OF SYBRINA FULTON, MIAMI, FLORIDA

    Ms. Fulton. Thank you so much for just taking the time to 
listen to what not only I have to say but the rest of the 
people that are testifying as well.
    By nature, I am a mother of two boys, and I still support 
both my sons. Although Trayvon is not with us, it is very 
important that I try to make a change for not only my older 
son, Jahvaris, which is still here on Earth, but also Trayvon.
    It is unfortunate what has happened with Trayvon, and that 
is why I feel like it is so important for me to be here so that 
you all can at least put a face with what has happened with 
this tragedy.
    Trayvon had recently turned 17 years old. He had only been 
17 for three weeks. We celebrated his 17th birthday on February 
5, and he was murdered on February 26. So he had only been 17 
for three weeks.
    It is very hurtful to know that Trayvon was only simply 
going to the store to get snacks, nothing more, nothing less. 
It is important to keep that in mind because teenagers like to 
be independent at times, and he was simply going to get a drink 
and some candy. That tells me right there his mentality. That 
tells me that he was not going to get cigarettes or bullets or 
condoms or other items of that nature. He was going to get a 
drink and candy.
    Trayvon was minding his own business. He was not looking 
for any type of trouble. He was not committing any crime. And 
that is important to remember that the things that surround the 
tragedy that happened are most important.
    At the time that this happened to him, he was on a 
telephone call with a young lady from Miami. That shows his 
mentality. That shows that he was not looking for trouble. He 
was not the criminal that some people have tried to make him 
out to be. He was not the criminal that the person who shot and 
killed him thought that he was. He was simply on the cell phone 
talking to a young lady in Miami, with candy and a drink.
    As I think about this as a mother and I think about how 
many kids walk to the store and how many kids now feel that 
they cannot be safe in their own community, I think about what 
kind of message we are sending as parents, as lawmakers, as 
elected officials, even as grandparents and aunts and uncles. 
What kind of message are we sending if our kids--because, 
remember, these are our kids in our communities--do not feel 
safe, do not feel safe simply walking to the store to get candy 
and a drink?
    So I just wanted to come here to talk to you for a moment 
to let you know how important it is that we amend this ``stand 
your ground'' because it did not--certainly did not--work in my 
case. The person that shot and killed my son is walking the 
streets today. And this law does not work. We need to seriously 
take a look at this law. We need to seriously speak with the 
State attorney's office, the police departments, more 
attorneys. We need to do something about this law when our kids 
cannot feel safe in their own community.
    Thank you.
    [The prepared statement of Ms. Fulton appears as a 
submission for the record.]
    Chairman Durbin. Ms. Fulton, we are sorry for your loss, 
and thank you for your courage in coming today, as well as to 
Trayvon's father. Thank you very much.
    Our next witness is Professor Ronald Sullivan. He is a 
clinical professor of law at Harvard Law School where he serves 
as faculty director of the Harvard Criminal Justice Institute 
and the Harvard Trial Advocacy Workshop. He previously taught 
at Yale Law School and served as director of the Public 
Defender Services in the District of Columbia. He received his 
B.A. from Morehouse College and his law degree from Harvard.
    Professor Sullivan, thanks for being here, and please 
proceed.

  STATEMENT OF RONALD S. SULLIVAN, JR., CLINICAL PROFESSOR OF 
LAW, DIRECTOR, CRIMINAL JUSTICE INSTITUTE, AND DIRECTOR, TRIAL 
ADVOCACY WORKSHOP, HARVARD LAW SCHOOL, CAMBRIDGE, MASSACHUSETTS

    Mr. Sullivan. Thank you very much. Good morning, Chairman 
Durbin and Ranking Member Cruz and Members of the Committee. 
Let me also join the Chair and others in sharing and offering 
my condolences for your loss, Ms. Fulton.
    In order to properly understand ``stand your ground'' laws, 
we must first appreciate the broader context in which they 
exist. First and most important, it is axiomatic that sanctity 
of human life is a central and animating value in our legal 
system. This, I trust, is not a particularly controversial 
claim. Dating back to our law's Judeo-Christian origins, 
interpreters and courts alike have recognized that human life 
is sacred, and those who would extinguish human life carry a 
heavy burden in order to justify such an act.
    ``Stand your ground'' laws, like all self-defense laws, 
require this heightened showing of necessity. The particular 
version of ``stand your ground'' laws which began with 
Florida's 2005 law differs drastically from other ``stand your 
ground'' laws and from the common law of self-defense in three 
important respects.
    First, these laws remove the common law duty to retreat. 
This has the result of emboldening individuals to escalate 
confrontation as opposed to an alternative rule which would de-
escalate confrontation. And the duty to retreat implies a duty 
to safely retreat.
    Second, these laws shift the legal presumption regarding 
reasonableness of one's fear. Under a Florida-type law, the 
actor is presumed to be reasonably in fear of imminent death if 
he is in his home or automobile, and this presumption abrogates 
the need for someone who is responsible for a homicide to 
affirmatively demonstrate the necessity of taking another human 
life.
    Third, these laws provide immunity from criminal arrest and 
civil liability. This has the unintended effect of encouraging 
the very sort of vigilantism that normal and ordinary law 
prevents. In my written testimony, I discuss all of these 
issues at length. I also analyze at length the extant empirical 
evidence, and I conclude that the data is not sufficiently 
robust to make a causal claim in either direction.
    So to say that ``stand your ground'' laws increase or 
decrease the incidence of crime, I think there are correlations 
there. I have not found strong causal evidence. But the weight 
of the evidence strongly points to the conclusion that ``stand 
your ground'' has little, if any, impact on homicide reduction, 
and the promulgation of these laws appears to correlate with an 
increase in certain types of violent crimes.
    Now, time does not permit me here to go into more detail, 
but I will make some observations about the Trayvon Martin 
case.
    Mr. Zimmerman's acquittal was made possible because 
Florida's ``stand your ground'' laws and its concealed weapons 
laws conspired to create the perfect background conditions for 
his exoneration. These laws permitted Mr. Zimmerman to carry a 
loaded firearm, to disregard the clear directive of a 911 
dispatcher, to follow and pursue Trayvon, and then stand his 
ground when young Trayvon reasonably sought to defend himself--
and all because, I strongly suspect, that Mr. Zimmerman could 
not apprehend any lawful reason for a young black male to be 
walking through his middle-class neighborhood. To Mr. 
Zimmerman, Martin's blackness likely served as a crude proxy 
for criminality.
    Now, this unfortunate outcome sends a twofold message. 
First, it tells Floridians that they can incorrectly profile 
young black children, kill them, and be protected by ``stand 
your ground'' laws. But, second, this decision sends an even 
more ominous message to young black children. So I consider 
myself fortunate to live in a jurisdiction that does not have 
``stand your ground'' laws. But what if it did? I have an 
African American son who is just shy of his 13th birthday, 
whose name ironically is Trey. What advice would I give him? I 
regret the only responsible advice, if I lived in a ``stand 
your ground'' jurisdiction, would be that if he ever felt 
seriously threatened by a stranger, then he would have to use 
all reasonable force, up to and including legal force, in order 
to protect himself, because I would rather my Trey be alive and 
able to argue that he stood his ground than dead and portrayed 
by lawyers, the media, and, present company excluded, 
politicians as some stereotypical black male criminal.
    This is not a desirable America for anyone, and I do not 
want my son growing up in such an America. I respectfully 
suggest that States pass laws that permit police to police and 
citizens to go about the business of building communities.
    Thank you.
    [The prepared statement of Mr. Sullivan appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Professor Sullivan.
    Our next witness is David LaBahn. Mr. LaBahn is the 
president and CEO of the Association of Prosecuting Attorneys, 
a national association representing elected deputy and 
assistant prosecutors. Previously he was director of the 
American Prosecutors Research Institute and executive director 
of the California District Attorneys Association. He was also a 
deputy district attorney in Orange and Humboldt counties in 
California. He is a graduate of Cal State Fullerton and 
received his J.D. from Western State University.
    Mr. LaBahn, please proceed.

   STATEMENT OF DAVID LABAHN, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, ASSOCIATION OF PROSECUTING ATTORNEYS, WASHINGTON, DC

    Mr. LaBahn. Good morning, Mr. Chairman, Ranking Member 
Cruz, and Members of the Subcommittee. Thank you for the 
opportunity to testify before you today. My name is David 
LaBahn. I am the president of the Association of Prosecuting 
Attorneys, a private nonprofit whose mission is to support and 
enhance the effectiveness of prosecutors in their efforts to 
create safer communities. APA is the only national organization 
to represent and include appointed and elected prosecutors, as 
well as their deputies and assistants. On behalf of APA, I am 
pleased to have the opportunity to address the issues 
surrounding this vast expansion of self-defense referred to as 
``stand your ground.'' As prosecutors, we seek to do justice 
for victims and hold offenders accountable for their actions, 
especially in cases where a life has been violently ended 
whether by firearm or other deadly means.
    Since 2009, APA has tracked the legislative progression of 
``stand your ground'' and assisted prosecutors who have been 
working to enforce these expansive new laws. I have attached to 
my testimony our Statement of Principles regarding ``stand your 
ground'' laws. These laws have raised a number of troubling and 
dangerous concerns.
    Prosecutors and their professional associations have 
overwhelmingly opposed ``stand your ground'' laws when they 
were in their respective legislatures. The concerns expressed 
include the limitation or even elimination of prosecutors' 
ability to hold violent criminals accountable for their acts. 
However, even with this opposition, many States have passed 
``stand your ground'' laws. Many of these laws include 
provisions that diminish or eliminate the common law ``duty to 
retreat,'' change the burden of proof regarding reasonableness 
to a presumption, and provide civil and criminal immunity. By 
expanding the realm in which violent acts can be committed with 
the justification of self-defense, ``stand your ground'' laws 
have negatively affected public safety and undermined 
prosecutorial and law enforcement efforts to keep communities 
safe. They have undermined standard police procedures, 
prevented law enforcement from arresting and detaining 
criminals, stymied prosecutors, deterring them from prosecuting 
people who claim self-defense even while killing someone in the 
course of unlawful activity.
    In some States, courts have interpreted the law to create a 
new procedural hurdle in the form of immunity hearings, which 
effectively transfer the role of the jury over to judge. 
Moreover, because these laws are unclear, there has been 
inconsistent application throughout the States and even within 
respective States. Prosecutors, judges, police officers, and 
ordinary citizens have been left to guess what behavior is 
legal and what is criminal. Even with the best efforts to 
implement these broad measures, defendants, victims' families 
and friends, investigators, prosecutors, defense attorneys, 
trial courts, and appellate courts have been forced into a 
case-by-case analysis with no legal certainty as to what they 
can expect once a life has been taken.
    ``Stand your ground'' laws provide safe harbors for 
criminals and prevent prosecutors from bringing cases against 
those who claim self-defense after unnecessarily killing 
others. For example, in a February 2008 Florida case, a drug 
dealer by the name of Tavarious China Smith killed two men in 
two separate incidents, the first drug-related, the second over 
retaliation. Though he was engaged in unlawful activity in both 
instances, prosecutors had to conclude that both homicides were 
justified under Florida's ``stand your ground'' law. 
Unfortunately, this example is not an anomaly. A recent study 
concluded that a majority of defendants shielded by ``stand 
your ground'' had arrest records prior to the homicide at 
issue.``Stand your ground'' expansion began in Florida in 2005. 
It is our position that common law sufficiently protected 
people's rights to defend themselves, their homes, and others. 
The proper use of prosecutorial discretion ensured that lawful 
acts of self-defense were not prosecuted, and I have not seen 
evidence to the contrary. After reviewing the legislative 
history of the Florida provision, the very case used to justify 
this broad measure involved no arrest or prosecution. The law 
enforcement community responded properly to the shooting, and 
the homeowner was never arrested or charged in his lawful 
exercise of self-defense.
    Because the provisions of ``stand your ground'' laws vary 
from State to State, I will attempt to summarize some of the 
provisions which have caused prosecutors difficulty in 
uniformly enforcing the law.
    First, the meaning of ``unlawful activity'' needs to be 
clarified. Many States have extended ``stand your ground'' 
protection to people who are in a place where they have a right 
to be and who are not engaged in an unlawful activity. Can a 
drug dealer defend his open-air drug market? If an individual 
is a felon, does he have a right to kill another with a 
firearm?
    Second, immunity is rarely granted in criminal law, with 
the few exceptions existing in order to encourage cooperation 
with law enforcement and the judicial system. The legislatures 
should remove the immunity provisions and clarify that self-
defense is an affirmative defense.
    Third, the replacement of presumptions with inferences will 
eliminate many of the dangerous effects. This coupled with an 
objective rather than a subjective standard will improve 
accountability while protecting the right of self-defense.
    Fourth, the statutes should be amended to prevent an 
initial aggressor from claiming self-defense. Some laws allow a 
person to attack another with deadly force and later use 
``stand your ground'' to justify killing the person he or she 
attacked if that person responds with like force and the 
initial aggressor cannot escape.
    Finally, we recommend that the law be limited so that 
``stand your ground'' cannot be raised when the victim is a law 
enforcement officer, regardless of actual knowledge. Statutes 
should be amended to read that ``stand your ground'' should not 
be applicable against a law enforcement officer while acting 
within the course and scope of their duties.
    Taken together, I believe these reforms to the various 
``stand your ground'' laws will help minimize their detrimental 
effects and restore the ability of investigators and 
prosecutors to fully enforce the law and promote public safety, 
while continuing to respect the rights of law-abiding citizens 
to protect themselves and their families.
    Thank you, Chairman, for holding this hearing, and as I 
have been sitting here, I do want to reflect the decision to 
take a life is one of the most solemn decisions any person can 
ever raise or be faced with. It should not be taken lightly. 
Policies should not encourage one to violently take the life of 
another. Once that event occurs, and having prosecuted cases 
and dealing with the victim's family here, both lives are 
forever changed--the individual who chooses to make the 
decision to take a life as well as the victim's family.
    Thank you.
    [The prepared statement of Mr. LaBahn appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Mr. LaBahn.
    Our next witness is Ilya Shapiro. He is a senior fellow in 
constitutional studies at the Cato Institute. Previously he was 
special assistant/advisor to the Multi-National Force in Iraq 
on rule-of-law issues and was an attorney in private practice 
at Patton Boggs. Mr. Shapiro received an undergraduate degree 
from Princeton, a master's from the London School of Economics, 
and a law degree from the University of Chicago Law School. He 
clerked for Judge Grady Jolly of the Fifth Circuit Court of 
Appeals.
    Mr. Shapiro, please proceed.

  STATEMENT OF ILYA SHAPIRO, SENIOR FELLOW IN CONSTITUTIONAL 
            STUDIES, CATO INSTITUTE, WASHINGTON, DC

    Mr. Shapiro. Mr. Chairman, thank you for this opportunity 
to discuss the right to armed self-defense.
    It is most appropriate that this hearing was originally 
scheduled for September 17th, marking the anniversary of the 
Constitution's signing. On that day, public schools have to 
teach about our founding document. My organization, Cato, which 
thankfully is not publicly funded, celebrates Constitution Day 
by releasing our ``Supreme Court Review.'' In reality, however, 
every day is Constitution Day, so please excuse me if I have to 
leave early to travel to the National Constitution Center in 
Philadelphia to discuss the constitutional issues attending the 
debt ceiling debate.
    Now, ``stand your ground'' is tremendously misunderstood. 
All it does is allow people to defend themselves without having 
a so-called duty to retreat. That concept has been part of U.S. 
law for over 150 years. About 31 States, depending how you 
count, now have some type of ``stand your ground'' doctrine, 
the vast majority in common law before legislators took any 
action. Some, like California and Virginia, maintain it without 
any legislation still.
    Of the 15 States that have passed ``stand your ground'' 
since 2005, a majority had Democratic Governors, including 
Jennifer Granholm, Janet Napolitano, and Kathleen Sebelius. 
Louisiana and West Virginia passed them with Democratic control 
of both Houses. Even Florida's supposedly controversial law 
passed the State Senate unanimously and split Democrats in the 
House. When Illinois strengthened its longstanding law in 2004, 
State Senator Barack Obama cosponsored the bill that was then 
unanimously approved.
    Conversely, many so-called red States impose a duty to 
retreat, and even in more restrictive States, courts have held 
that retreat is not required when preventing serious crime. 
Indeed, it's a universal principle that a person can use force 
when she reasonably believes it necessary to defend against an 
imminent use of unlawful force. Where there is no duty to 
retreat, as in most States, she is further justified in using 
deadly force if she reasonably believes it necessary to prevent 
death or grave bodily harm. The Florida law is no different.
    It's not an easy defense to assert, and it certainly 
doesn't mean that you can shoot first and ask questions later. 
These laws are not a license to be a vigilante or behave 
recklessly. They just protect law-abiding citizens from having 
to leave a place where they're allowed to be. That's why this 
debate isn't new.
    In ancient Britain, when the deadliest weapons were swords, 
a duty to retreat greatly reduced blood feuds. British law 
reflects a ``deference to the constabulary,'' by which the King 
owed a duty of protection to his subjects. That's obviously not 
part of our tradition.
    Despite what gun prohibitionists claim, the no-retreat rule 
has deep roots in American law. At the Supreme Court, it dates 
to the unanimous 1895 case of Beard v. United States, which 
Senator Cruz quoted. In places with a duty to retreat, crime 
victims can be imprisoned just for defending themselves. That's 
controversial. A mugger cannot have your wallet, but he can 
make you leave a public place?
    Among those harmed by the duty to retreat are domestic 
violence victims who turn on their assailants. Feminists thus 
support ``stand your ground'' and point out that ``you could 
have run away'' may not work when faced with a stalker.
    ``Stand your ground'' laws are thus designed to protect 
law-abiding citizens. That's how we have the Castle Doctrine, 
which essentially all States recognize, most extending the 
doctrine to public spaces as well. It's bad enough for an 
innocent person to find herself threatened by a criminal, but 
to then have to worry about whether she can retreat lest she 
face lawsuits is too much to ask.
    As the progressive Justice Oliver Wendell Holmes wrote in 
the 1921 case of Brown v. United States, ``detached reflection 
cannot be demanded in the presence of an uplifted knife.'' 
Nearly a century later, we shouldn't demand more of crime 
victims.
    Of course, any self-defense rule bears the potential for 
injustice. For example, in a two-person altercation, one may be 
dead and the other dubiously claim self-defense. These cases, 
like Trayvon Martin's, implicate the self-defense justification 
generally. If George Zimmerman was the aggressor, then he has 
no self-defense rights at all. If Trayvon attacked Zimmerman, 
then the only question is whether Zimmerman reasonably believed 
that he was in danger, not whether he could've retreated. And 
if Zimmerman provoked the confrontation, he lost the 
protections of the ``stand your ground'' law.
    In short, hard cases make skewed policy debates. This 
Committee is well familiar with that demagogic dynamic after 
Sandy Hook. While anti-gun lobbyists have used both that 
tragedy and Trayvon Martin to pitch all sorts of gun control 
laws, what they really target is the right to armed self-
defense. With ``stand your ground'' laws, yes, prosecutors need 
to show evidence to counter claims of self-defense, not simply 
argue that the shooter should've retreated. For those who value 
due process, which should include historically mistreated 
minorities, that's a feature, not a bug.
    Finally, I should mention one episode that has contributed 
to the sensationalism surrounding this debate: the attempt to 
intimidate organizations with any ties to the American 
Legislative Exchange Council. Accordingly, I've submitted with 
this statement Chairman Durbin's letter to that effect and the 
response by Cato's president, John Allison.
    Thank you for having me. I welcome your questions.
    [The prepared statement of Mr. Shapiro appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Mr. Shapiro.
    Our next witness is John Lott. Mr. Lott is the president of 
a newly formed organization, the Crime Prevention Research 
Center. He previously served in research or a teaching position 
at the University of Chicago and Yale, among other schools. He 
was the chief economist at the U.S. Sentencing Commission from 
1988 to 1990. He is currently a weekly columnist and 
contributor for FoxNews.com. He received his Ph.D. in economics 
from UCLA.
    Mr. Lott, please proceed.

    STATEMENT OF JOHN R. LOTT, JR., PH.D., PRESIDENT, CRIME 
      PREVENTION RESEARCH CENTER, SWARTHMORE, PENNSYLVANIA

    Mr. Lott. Thank you very much, Chairman Durbin and Ranking 
Member Cruz and other distinguished Members. ``Stand Your 
Ground'' laws help people to be able to defend themselves. It 
is the people who are most likely to be victims of violent 
crime, primarily poor blacks, who benefit the most from having 
the option to be able to protect themselves.
    What has been lost in part of this discussion so far is the 
reason why States have adopted these laws. Requiring people to 
retreat as far as possible creates confusion, creates doubt, 
and can make it more difficult for people to be able to go and 
defend themselves.
    In Florida, blacks make up about 16 percent of the 
population, but they account for 31 percent of the State's 
defendants invoking ``stand your ground'' laws. Black 
defendants who invoke this statute to justify their actions are 
actually acquitted almost eight percentage points more often 
than whites.
    The Tampa Bay Tribune has put together very detailed data 
on ``stand your ground'' cases. Up through July 24th of this 
year from the beginning of 2006, the newspaper had collected 
112 cases. The information that they had that often constitutes 
their ``shocking'' is that 72 percent of those who killed a 
black person faced no penalty compared to 59 percent of those 
who killed a white person; 80 percent of those who killed 
Hispanics were also not convicted.
    What one needs to remember, however, in this is that the 
vast majority of these crimes are within race. So, for example, 
90 percent of blacks who were killed in ``stand your ground'' 
cases--who invoked ``stand your ground'' were killed by other 
blacks. In the case of whites, it was 85 percent. In the case 
of Hispanics, it was 100 percent.
    The basic point is that if you are going to concentrate on 
the fact that relatively few people who kill blacks are going 
to be convicted using ``stand your ground'' defenses, you have 
to realize that almost all those people who are not being 
convicted are blacks. Sixty-nine percent of blacks who raised 
the ``stand your ground'' defense were not convicted. That 
compares to a little bit less than 62 percent for whites. 
Eighty percent of Hispanics who raised the ``stand your 
ground'' defense are not convicted. If blacks are supposedly 
being discriminated against because their killers so often are 
not facing any penalty, wouldn't it also follow that blacks are 
being discriminated in favor of when blacks who claim self-
defense under the ``stand your ground'' law are convicted at 
much lower rates than other racial groups?
    The problem also is not all these cases are the same. 
Blacks killed in confrontations were 13 percentage points more 
likely to be armed than whites. By a 43- to 16-percent margin, 
blacks killed--again, killed by other blacks--were also more 
often in the process of committing another crime. They also 
were involved in cases where it was much more likely to have a 
witness present.
    If you go and run regressions where you try to account for 
all the factors that are brought up in the Tampa Bay Tribune 
data set, what you find is that white defendants are more 
likely to be convicted than black defendants, and people 
invoking ``stand your ground'' laws who kill blacks were also 
more likely to be convicted than those who killed whites.
    What you find when you look at it--and fortunately this is 
the case--the people who initiated the confrontation were more 
like to be convicted. And when there were eyewitnesses, they 
were less likely to be convicted. Armed individuals and when 
more than one person was killed also were much more likely to 
result in convictions.
    The Urban Institute report that was brought up earlier, I 
think, actually shows the opposite of what has been quoted 
here.
    One of the important things just to mention: John Roman, 
who wrote this, noted, ``Stand Your Ground laws appear to 
exacerbate''--well, he said they appear to exacerbate racial 
differences, but he acknowledges his data lacks details 
available in the Tampa Bay Tribune data: ``The data here cannot 
completely address this problem because the setting of the 
incident cannot be observed.''
    And if you go through his paper, what you find, he has no 
data, no information on whether an eyewitness saw the 
confrontation, no data on whether there was physical evidence. 
He has no evidence on a whole range of things in order to try 
to factor those into account.
    The big thing, if you look at his study, the central 
finding is to look at Table 3, and what you find is that when 
blacks are under ``stand your ground'' laws, their situation in 
terms of conviction rates actually fall.
    If you look at the Texas A&M study that was mentioned, they 
do not account for any other gun control laws. If you are going 
to look at ``stand your ground'' laws, whether you have right 
to carry, the number of people who have permits is going to be 
important. And when you account for those things, the results 
disappear.
    If you are talking about Castle Doctrines, whether people 
are able to get quick access to guns is going to be important. 
And, again, nothing about gun law or State storage laws are 
accounted for in those studies, and when you do that, the 
results also disappear.
    [The prepared statement of Mr. Lott follows:]
    Chairman Durbin. Thank you, Mr. Lott.
    Our final witness is Lucia McBath. Ms. McBath is the mother 
of Jordan Russell Davis, who was shot and killed on November 
23, 2012, at a gas station in Jacksonville, Florida. Ms. McBath 
and Jordan's father, Ron, have become advocates for reducing 
gun violence. Ms. McBath is the national spokesperson for an 
organization known as ``Moms Demand Action for Gun Sense in 
America.'' She recently founded the Walk with Jordan 
Scholarship Foundation, providing assistance for graduating 
high school students. Ms. McBath is a graduate of Virginia 
State University, and before you say a word, I would like to 
thank all the members of the panel for their patience in the 
rescheduling of this hearing. We had a chance to meet when it 
was previously scheduled, and I am glad we did have those 
moments together.
    So please proceed with your testimony.

       STATEMENT OF LUCIA HOLMAN MCBATH, ATLANTA, GEORGIA

    Ms. McBath. Thank you. Good morning, Chairman Durbin and 
honored Members of the Subcommittee. My name is Lucia Holman 
McBath, and I thank you for the opportunity to speak before 
this great institution today.
    I was raised in a family steeped in justice and confident 
in the triumphant goodness of humanity. My mother was a 
registered nurse, and my father, who served in the U.S. Army 
Dental Corps, was also, for over 20 years, president of the 
NAACP for the State of Illinois. He worked actively with 
President Lyndon Baines Johnson in the signing of the Civil 
Rights Act of 1964. If he could see me here today, testifying 
in front of the U.S. Senate, he would be beaming with pride and 
amazed at how far his daughter had come--until he came to 
understand what brought me here.
    I appear before you because my son Jordan was shot and 
killed last November while sitting in the back seat of a 
friend's car listening to loud music. The man who killed him 
opened fire on four unarmed teenagers even as they tried to 
move out of harm's way. That man was empowered by the ``stand 
your ground'' statute. I am here to tell you there was no 
ground to stand. There was no threat. No one was trying to 
invade his home, his vehicle, nor threatened him or his family. 
There was a vociferous argument about music, during which the 
accused, Michael Dunn, did not feel he was treated with 
respect. ``You are not going to talk to me like that,'' he 
shouted as he sprayed the car that Jordan sat in with bullets, 
killing him instantly. When Jordan's friends tried to back the 
car away, Mr. Dunn aimed his handgun and fired off several more 
rounds; nine, total, pierced the car. There are any number of 
ways this interaction might have gone, but there was only one 
way it could have ended once a gun entered the equation.
    In Florida, over one million people carry concealed 
weapons. Additionally, 10,000 to 15,000 more Floridians are 
approved to carry guns in public every month--faster than any 
State in the Nation. Nationally, Florida has some of the 
loosest permitting requirements. Automobile glove boxes are 
becoming modern day ``gun boxes.'' In his glove box, Michael 
Dunn kept a 9mm semi-automatic gun along with two loaded 
magazines. Once he had unloaded his gun at my son and his 
teenaged friends, he immediately went back to his hotel, 
ordered a pizza, and slept. He left the scene and made no 
attempt to call police. He retreated, but only after he killed 
my son. The next morning, he was arrested two hours away. Those 
are hardly the actions and motives of someone who was quaking 
with fear.
    Some will tell you that the argument was about music, but I 
believe that it was about the availability of guns and the 
eagerness to hate. People like Mr. Dunn feel empowered to use 
their gun instead of their voice to reason with others. Now I 
face the very real possibility that my son's killer will walk 
free, hiding behind a statute that lets people claim a threat 
where there was none. This law declares open season on anyone 
that we do not trust for reasons that we do not even have to 
understand. They do not even have to be true. In essence, it 
allows any armed citizens to ``self-deputize'' themselves and 
establish their own definition of law and order. It lets one 
and all define their own criteria for right and wrong and how 
justice will be carried out. Even the Wild West had more 
stringent laws governing the taking of life than we have now. 
``Stand your ground'' defies all reason. It goes against the 
sound system of justice established long ago on this very Hill.
    My son was named for the Jordan River. In the Bible, that 
river symbolized the crossing to freedom. Its waters marked the 
final steps to liberation and offered up the holy stream that 
baptized Jesus. Its name seemed a fitting choice for a boy born 
at the end of the 20th century--a time when black people in 
this country had finally come into their own.
    Jordan was named for a change in the tide, a decision to 
try harder and do better. He was my only child. He was raised 
with love and learning and a clear understanding of right and 
wrong. I have been without Jordan now since Thanksgiving 
weekend 2012, without him last Christmas and on his birthday in 
February. I never got to take his prom picture or see him 
graduate from high school. I can tell you all about him--about 
his easy smile, his first girlfriend, and his plans to join the 
Marines. I can tell you how he loved his dad's gumbo and how 
they both rooted for the New York Giants. But you can never 
really know my boy, because an angry man owned a gun, kept it 
close at hand, and chose to demonstrate unbridled hatred one 
balmy evening for reasons I will never understand. These laws 
empowered his prejudiced beliefs and subsequent rage over my 
son's own life, his liberty and pursuit of happiness. There 
will be no sense made of any of it unless I and the families of 
other victims speak out to assure that this kind of predatory 
violence ends.
    It was 50 years ago that my father shook hands with Eleanor 
Roosevelt. She assured him of the validity of his struggle and 
the promise of better times. She, as he did, believed that this 
Nation was righteous to the core; that we as a country would 
never stop striving to do better; and that was what made us 
better. Honorable men and women of the Senate, you can prove 
them right today. With your help and willingness to bring our 
laws back toward the true tenets of justice, you can lift this 
Nation from its internal battle in which guns rule over right. 
You have the power to restore hope to a Nation crying out for 
justice, and I pray that you hear the will of the Lord.
    Thank you.
    [The prepared statement of Ms. McBath appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Ms. McBath.
    We will now turn to questions for the witnesses, and each 
Member of the Committee will have seven minutes. I will start.
    Ms. Fulton and Ms. McBath, thank you for your courage in 
coming here today. I find it hard to understand those who 
defend ``stand your ground'' by arguing that African Americans 
should celebrate these laws. The notion that somehow this is to 
the benefit of African Americans or minorities in this country 
just defies the stories that we have been told by both of you. 
Innocent children--children--killed in the name of self-
defense, when in neither instance was there evidence of 
aggressive or violent conduct by these victims, these young men 
who were shot down.
    Professor Sullivan, you have heard these arguments made, 
two members of the panel and a Member here, about this notion 
that somehow African Americans should view this as a positive 
thing on ``stand your ground.'' What would you respond?
    Mr. Sullivan. Well, I would agree with your statement, 
Senator Durbin. It is not a positive thing for anyone where 
citizens of the United States are running around shooting each 
other. Whether the perpetrator is African American, whether the 
victim is African American, it really does not matter. We do 
not live in the Wild, Wild West era any longer. Private law 
enforcement has a deleterious effect on our country, and we 
should leave it to trained police officials to engage in this 
sort of behavior.
    Chairman Durbin. Mr. LaBahn, your testimony--I read it over 
last night and again this morning--and I was particularly moved 
by one section of it that I would like to repeat. You stated: 
``By expanding the realm in which violent acts can be committed 
with the justification of self-defense, `stand your ground' 
laws have negatively affected public health and undermined 
prosecutorial and law enforcement efforts to keep communities 
safe.''
    You then go on and talk about a specific case in February 
2008, which you mention in your testimony: `` . . . a 29-year-
old drug dealer named Tavarious China Smith killed two men in 
two separate incidents, the first drug-related, and the second 
over retaliation for the first. Though he was engaged in 
unlawful activity in both instances--selling drugs during the 
first shooting and using an illegal gun in the second--
prosecutors had to conclude that both homicides were justified 
under the Florida's ``stand your ground'' law. 
``Unfortunately,'' you go on to say, ``this example is not an 
anomaly. A recent study concluded that a majority of defendants 
shielded by `stand your ground' laws had arrest records prior 
to the homicide at issue.''
    Now, Mr. LaBahn, if we had called as a witness here a 
person representing the National Association of Criminal 
Defense Attorneys, maybe some people would have understood: 
``Oh, I can see where they are going.'' But in your case, you 
represent the profession of those who prosecute criminals, and 
you are saying ``stand your ground'' laws are not working to 
the benefit and defense of America. Tell me why you come to 
that conclusion.
    Mr. LaBahn. Well, Senator, I think you gave that example, 
and I can give the Committee additional examples and even more 
recent cases, but I will start right away with your question 
about the National Association of Criminal Defense Lawyers. On 
behalf of APA, we work closely with the defense bar, and this 
is one of the areas that the two of our groups, we diverge. 
Why? Because this is good for the defense.
    When I testified down in Florida, there was a defense 
lawyer that was on the Scott Commission. He clearly said this 
is good for the defendants.
    Chairman Durbin. Excuse me. You are saying the criminal 
defense lawyers were arguing that ``stand your ground'' laws 
were good for criminal defendants.
    Mr. LaBahn. Good for criminal defendants, that the role of 
the criminal defense attorney is to get their client off in the 
criminal action. However, the role of the prosecutor is to seek 
justice. So on behalf of the criminal defendants and defense 
lawyers, this is a good law. Look at the ambiguities that are 
here. Look at the specific examples. You talked about--here is 
a drug dealer in an open-air drug market. Now, unfortunately, 
at the time of the killing he was not selling. If he had been 
selling drugs, then it would be an unlawful activity. But he 
was just in a legal place he had a right to be, and he was not 
selling at that moment; therefore, he had a right to defend 
himself.
    The second piece, as I mentioned in my testimony, is a 
felon in possession. If someone is a convicted felon, they have 
no right to possess a firearm. Yet they can go ahead under 
``stand your ground'' and use--especially by Florida 
decisions--use that firearm and be free and not be held 
accountable.
    These stories are unbelievable. In January 2012, another 
Florida case, the victim was stealing--now, again, the victim 
of the shooting did something wrong, no question about that. 
But in this situation, someone sees their car being 
burglarized. They go ahead, they chase--they yell at him, ``Get 
out of my car,'' in this Florida situation chased him down and 
knifed him to death. Never reported, never called 911, never 
said anything about it, and then when confronted, said, ``I was 
defending my property.''
    The Texas example, November 2007: the Horn case that was 
broadly disseminated out to the country. A gentleman looks and 
sees his neighbor's house being burglarized, calls 911 to 
report it. 911 urged them, you know, ``Stay in your house. We 
will get him. We will take care of it.'' No. Instead, he goes 
ahead and shoots both of those two dead--and I believe they 
were juveniles--and then goes ahead and exercises ``stand your 
ground.'' And that went in front of the Harris County grand 
jury. The Harris County grand jury found that to be ``stand 
your ground.''
    The movement here to create these presumptions and to give 
immunity--immunity--is crazy. That is not what it should be. It 
should be an affirmative defense, and that has caused these 
problems. So, yes, on behalf of prosecutors, these acts have 
done nothing but cause us difficulty.
    Chairman Durbin. It appears that this law is an invitation 
for confrontation, that historically--and I think Professor 
Sullivan raised this point--if you could safely retreat, that 
was your duty, except in your home. The Castle Doctrine, I 
believe, made a clear distinction when it came to your home in 
that circumstance. But the new laws, the ``stand your ground'' 
laws, are an invitation to confrontation and presumption of 
reasonableness and civil and criminal immunity.
    Now I understand that the State of Florida is debating 
about changing these laws. Could either of you testify about 
how they would change their law and what they are raising as a 
reason for a change?
    Mr. Sullivan. Well, I think they are raising as a reason 
for a change the fact that the law produces absurd results. One 
of the things that they are thinking about changing is clearly 
establishing this principle of first aggressor and whether 
first aggressors can avail themselves of the law.
    Duty to retreat, if I can, Senator, is important because I 
have heard comments today that are plainly wrong with respect 
to what historically duty to retreat meant. And you said it. It 
meant ``safely retreat.'' It did not mean stand there foolishly 
and be brutalized because of some law. If it is unsafe to 
retreat, nowhere in our history is an individual required to 
retreat; rather, only if it is safe to retreat. This is just a 
norm of good judgment, the exercise of good judgment, a norm 
that prevents the sort of vigilantism that we see in these many 
cases that were cited.
    Finally, I think Florida, to answer your question, should 
tweak the immunity provision, because my point is that 
immunity, along with the change in presumption, conditions a 
certain response in people; that is, people who know this law 
behave in a way, a much more aggressive, frontiersman-like way, 
that they would not but for the broad, expansive protection of 
these laws, quite different from the historical self-defense 
laws and even quite different from the ``stand your ground'' 
iterations historically. 2005 marked an extreme difference in 
the way that these laws were written.
    Chairman Durbin. Thank you.
    Mr. LaBahn.
    Mr. LaBahn. Mr. Chair, thank you. Responding to your 
question about Florida, the other significant thing that 
Florida is doing and has passed out of their committee is the 
immunity provision. They are working on the--and it was the 
civil portion to say that if someone sprays and creates--kills 
a number of people in ``stand your ground'' that they should 
not be civilly immune, especially hitting an innocent 
bystander, because I think it is significant, and as I shared, 
I testified in front of that commission, and now they are 
stepping forward and changing what is a flawed law.
    May I add one other comment, sir? William Meggs, who was 
unable--he is the second judicial circuit prosecutor out of 
Florida. He was unable to attend today, but he had been in the 
initial one. His closing comments, I think, are so very, very 
important, and that was this: ``Shouldn't we have a duty to act 
reasonably toward one another?'' That was the law before 
``stand your ground'' and which is why the law should return.
    The bottom line is that this is an unnecessary law which 
makes it easier for the worst criminals to get away with some 
of our most heinous crimes. So, yes, that is why, on behalf of 
prosecutors, I stand here today.
    Chairman Durbin. Thank you.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    At the beginning, I would like to enter into the record a 
statement from the senior Senator from Texas, Senator Cornyn.
    Chairman Durbin. Without objection.
    [The prepared statement of Senator Cornyn appears as a 
submission for the record.]
    Senator Cruz. I would like to thank each of the members of 
the panel for being here, in particular Ms. Fulton and Ms. 
McBath. Thank you for being here. Thank you for sharing your 
stories. Every parent understands the mourning you are feeling, 
and it is always a tragedy when a child loses his life. And 
please know that we are all feeling your loss and express our 
very sincerest condolences.
    Much of the discussion this afternoon has concerned the 
tragic circumstances of the Trayvon Martin case. And none of us 
in this hearing was there that night. None of us knows 
precisely what happened. We do know that there was a violent 
altercation between an Hispanic man and an African American 
teenager, and we know that at the end of that confrontation, 
the teenager was dead.
    What exactly occurred that night no one in this room likely 
will know for sure. But we do know some things. We know that 
our system of justice has a process for ascertaining what 
happens when there is a violent confrontation, particularly one 
that leads to the loss of life, and that process is a jury 
trial. And a jury of Mr. Zimmerman's peers heard the evidence 
in that case. He was prosecuted in that case, and the jury 
rendered a conclusion. We do not know if the jury was right or 
wrong, but we do know that the jury system is the only system 
that our judicial system has for ascertaining what happened. 
Particularly when you have a one-on-one confrontation, it can 
be particularly difficult to determine what the facts are.
    But we also know that the subject of this hearing, the 
``stand your ground'' laws, was not a defense that Mr. 
Zimmerman raised. So this entire hearing--the topic of this 
hearing is not the issue on which that trial turned. And, 
sadly, we know that some in our political process have a desire 
to exploit that tragic, violent incident for agendas that have 
nothing to do with that young man who lost his life.
    We have seen efforts to undermine the verdict of the jury 
and more broadly to inflame racial tensions that I think are 
sad and irresponsible. I recognize that for the family you are 
simply mourning the loss of your son, and I understand that. 
But there are other players who are seeking to do a great deal 
more based on what happened that Florida night.
    I would note additionally that the Chairman of this 
Committee a moment ago made, I thought, a remarkable statement 
to the effect that no one could reasonably believe that ``stand 
your ground'' laws protect those in the African American 
communities who are victims of violent crime. I think that is a 
remarkable statement on many, many fronts, including the fact 
that a great many African Americans find themselves victims of 
violent crime and have asserted this defense to defend 
themselves, defend their families, defend their children.
    But I also find it remarkable because the assertion that no 
one reasonably could suggest this benefited the African 
American community is drawn into remarkable relief when one 
keeps in mind that in 2004, a State Senator in Illinois by the 
name of Barack Obama cosponsored an expansion of Illinois' law 
providing civil immunity for those who use justifiable force to 
defend themselves. So the notion that ``stand your ground'' 
laws are some form of veiled racism may be a convenient 
political attack, but it is not borne out by the facts 
remotely.
    I want to, second, note the issue of ALEC, an organization 
that exists to encourage common sense legislation in State 
legislatures. I would like to enter into the record multiple 
letters that have been submitted to me by organizations that 
are concerned about the targeting of ALEC in conjunction with 
this hearing.
    Chairman Durbin. Without objection.
    [The letters appear as submissions for the record.]
    Senator Cruz. And I would note that it should always be a 
concern when you see the U.S. Senate targeting the exercise of 
free speech. This observation is not unique to me. Indeed, on 
August 8, 2013, the Chicago Tribune wrote an editorial that 
stated: ``Free speech is not always free. It gets downright 
cumbersome'' when Senators have you on their enemies lists. And 
it would be wrong for a U.S. Senator to use the power of his 
high federal office as a cudgel against his enemies, and I 
certainly hope that this Senate hearing does not become an 
avenue to suppress free speech.
    A final point I would like to make: By its definition, the 
``stand your ground'' law does not apply to aggressors. It 
explicitly excludes aggressors.
    I would note, Ms. McBath, on the facts as you have 
described that evening your son lost his life, the defense 
would not apply, would not even arguably apply. It is a defense 
that only, only, only applies to those who are the victims or 
potential victims of other violent aggressors. Indeed, it is 
only triggered when there is ``an imminent attack that could 
cause death or serious bodily injury.'' So this is a doctrine 
that, by definition, does not apply to aggressors and only 
applies when death or serious bodily injury is at risk.
    And so the question that all of us have to ask is: In a 
confrontation between a violent aggressor and a potential 
innocent victim, a potential innocent victim seeking to protect 
himself, herself, or her children, with whom do we stand? And 
I, for one, believe we should stand with the innocent against 
aggressors. That is why the right to self-defense has been so 
critical for time immemorial. And I hope that we will not see 
the constitutional rights of innocent citizens sacrificed 
because of political agendas of some.
    Thank you.
    Chairman Durbin. I would ask patience of my colleague from 
Connecticut. Since the Senator from Texas has raised some 
personal issues, I am going to respond to them.
    Let me be very specific when I say this. Do not take my 
word for it. Take the testimony of Hilary Shelton, director of 
the NAACP Washington Bureau, in which he states--and it is part 
of this record--``Few issues have caused as much angst and 
raised as many deeply held concerns among our members and the 
communities we serve as that of `stand your ground' laws. These 
laws and their applications have sadly resulted in no less than 
the murder of people who were doing nothing more than walking 
down the street.''
    Statement in the record by Hilary Shelton of the NAACP. 
This continued reference to ``inflaming racial tensions,'' my 
friends, we have heard this before over and over again. We have 
problems with the issues of race in America that we have to 
face squarely. And when people are being discriminated against, 
whoever, wherever in america, the Subcommittee on the 
Constitution, Civil Rights, and Human Rights is not going to 
back away.
    The second point I would like to make is this: There are 
many victims when it comes to ``stand your ground'' laws. ALEC 
is not one of them. I will concede that I asked those who were 
publicly identified as supporters of this organization if they 
supported this ``stand your ground'' law. Only one out of 140 
that responded said they supported it. I am not going to enter 
the names of these organizations in the record for the very 
point that was made by the Senator from Texas. I do not want to 
establish any chilling effect on political participation. But I 
think it is reasonable to ask the members of an organization if 
they agree with that organization's agenda, an agenda which Mr. 
Piscopo, who is now the chairman of ALEC, from the State of 
Connecticut, has said they no longer stand by.
    So I am not going to enter any names into the record for 
that very reason, but isn't it noteworthy that of 140 
organizations contacted, only one said they supported ALEC's 
agenda on ``stand your ground'' laws? That is a fact.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    You know, I want to thank the Chairman for having this 
hearing. It is not only a legitimate but a necessary hearing. 
It is profoundly important that we face these issues of human 
rights, which hopefully are also matters of constitutional 
rights. And I want to thank every one of the witnesses, all of 
you, for being here today, most especially Ms. Fulton, Ms. 
McBath, for your stories and your firsthand experience, which 
is so profoundly important, because we can have theoretical and 
rhetorical debates here, but what really matters is what 
happens to these doctrines of law in the streets, in the 
courtroom, when they are explained to juries. I say that as a 
prosecutor.
    My fellow prosecutors would often say to me that the most 
difficult times for them in prosecuting a case was when the 
judge tried to explain the law to a jury. Right? How do you 
explain ``stand your ground'' in the complex, challenging, 
often emotionally charged time when a jury has to decide 
whether a person's liberty should be taken away and sometimes 
even a person's life as a result of the alleged commission of a 
serious crime?
    And so I must say, Mr. LaBahn, your testimony has special 
meaning to me because the members of your associations are the 
ones who take cases, this myriad of facts, sometimes confusing 
and contradictory, and try to present them to a judge or a jury 
in a way that results in justice. And you used one word that I 
think is profoundly important: ``ambiguity.'' ``Stand your 
ground'' as opposed to self-defense, even as I sit here, I 
wrestle with what the distinctions are in real life and how 
they are explained to juries. And that is why I agree with 
Senator Durbin that the ambiguity of these doctrines can 
encourage violence and confrontation.
    The apparent approval that it may give to people who feel 
that they have been insulted and maybe threatened, non-
physically but verbally, seems to me can result in a hope of 
acquittal or non-conviction and thereby encourage violence.
    So maybe you can speak to how in the courtroom this 
doctrine of ``stand your ground'' has a practical impact.
    Mr. LaBahn. Thank you, Senator, and, you know, here I am in 
front of not one former Attorney General but actually two 
former Attorneys General, so I will have to be real good on my 
law, especially as you talk about the courtroom.
    First of all, what this law does is place it as either it 
is murder or nothing. And you talked about the ambiguity. 
Someone chooses to take an action and chooses and intentionally 
kills another, and usually the role of prosecutors with 
homicide and that killing, is it a manslaughter, is it a 
murder? If it is a murder, is it a first or a second? Are there 
some special circumstances?
    But when you put this, both the presumption and the 
immunity provisions in there, you create a situation where it 
is very difficult to determine, even at the filing stage, what 
kind of a crime it is. But especially particularly as it 
relates to Florida, you are put into that box. It is either 
murder or nothing.
    Second, there has been some discussion here about the 
aggressor, and I would like the Committee to look at Chapter 
776.041 of the Florida statute and why ``stand your ground'' 
did apply in the Trayvon Martin case and applied directly. It 
is because 776.041 says ``use of force by aggressor.'' And 
clearly within that statute, they allowed, and it is the person 
reasonably believes. So it was a subjective belief by Mr. 
Zimmerman that he was about--in imminent danger that therefore 
justified his use of that force, which goes directly to what 
one of the jurors said. And the jurors did--as you talked about 
the courtroom, the jurors followed the law. The law said you 
can use that reasonable force under the Florida ``stand your 
ground'' if you believe that you are reasonably in that 
imminent threat.
    So, yes, it is incredibly difficult, and the ambiguity is 
never good. The other test that we use with ambiguity is how 
many appellate decisions come out of a particular statute. All 
of you know with State legislatures how many criminal statutes 
get passed, how much end up appealed and get reversed. And 
``stand your ground'' is one of the most appealed, especially 
as it relates to the homicide cases. And that is why I say the 
ambiguity is incredibly apparent; just look at Nexus if you 
want to see all the different ways that this has been appealed.
    Senator Blumenthal. In your experience, Mr. LaBahn, do the 
members of your organization overwhelmingly share your view?
    Mr. LaBahn. They do, and that is why I point to the 
statement of principles, also the difference between the 
legislative branch as well as the executive branch. My members 
are the executive branch. Once a legislature steps forward and 
passes a law, we must do everything we can to try to seek 
justice in those cases, just like what occurred in Florida. And 
even with that opposition, they are enforcing it.
    Senator Blumenthal. In your experience, do the overwhelming 
majority of police officers share this view?
    Mr. LaBahn. Again, the officers that I am working at, the 
other national associations, yes, some very sincere. And that 
is why I talked about justified killing of an officer. I 
believe Indiana flips that around and basically encourages, as 
you talk about the public policy, to go ahead and take an 
officer's life unless you, as the citizen, believe that that 
officer was following, in course and scope of employment. That 
to me, again, Senator, that is craziness.
    Senator Blumenthal. So police officers feel these laws may, 
in effect, represent a threat to them.
    Mr. LaBahn. Back to ambiguity--both a threat to them, they 
might be serving a search warrant, going into a home, what if 
they are plainclothes, not in uniform, then absolutely. And I 
believe a Georgia case is directly on point with that one, that 
the requirement is that there be actual knowledge instead of an 
officer doing their job. That is a problem for police officers, 
and then officers do not know what to do when you have a 
statute that says you cannot arrest, you know, yet you are 
supposed to investigate. What does that mean?
    Senator Blumenthal. And I think you say it well in your 
testimony when you say, ``Prosecutors''--and I am quoting: 
``Prosecutors, judges, police officers, and ordinary citizens 
have been left to guess what behavior is legal and what is 
criminal,'' which I think hits the point about ambiguity.
    Mr. LaBahn. And there should not be ambiguity in something 
like murder, Senator.
    Senator Blumenthal. Thank you.
    Thank you, Mr. Chairman.
    Chairman Durbin. Mr. Shapiro, I know you have to leave to 
catch a train. You told us ahead of time. Thank you so much for 
your testimony and being here today.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    One of the observations about this whole debate is how 
diverse the States seem to be in terms of arriving at the same 
conclusion where you have Michigan, Nevada, New Hampshire, and 
Pennsylvania with ``stand your ground'' laws, and you have a 
lot of Southern States where--I guess the point I am trying to 
make, it seems to me that Democrats and Republicans, depending 
on what State you are from, seem to embrace these laws. Eight 
Democratic Governors have signed ``stand your ground'' laws, so 
I do not--I hope this does not turn into the Republicans are 
for it and the Democrats are against it. It seems to be a 
pretty diverse mix of views about whether or not this is good 
public policy.
    Mr. Sullivan, from the federal point of view, there are 
remedies available to the Federal Government if there has been 
an injustice at the State level. Is that correct? Like in any 
case, the Trayvon Martin case, the case here in Illinois, the 
Justice Department could, if they chose, pursue federal action. 
Is that correct?
    Mr. Sullivan. Absolutely.
    Senator Graham. Do you agree with Attorney General Holder's 
decision not to pursue a federal civil rights case in the 
Trayvon Martin----
    Mr. Sullivan. I do, based on the standard that needs to be 
satisfied in order to move forward with a case like that. The 
Federal Government would have to demonstrate that at the moment 
of the violent encounter, Mr. Zimmerman behaved as he did as a 
function of racial animus, and I am not sure that there is 
sufficient evidence there for the Federal Government to go 
forward. So I tend to agree with that case, with that decision 
on that basis, and also on a more prudential basis that the 
Federal Government should be cautious and exercise discretion 
in going in and upsetting a State verdict.
    Senator Graham. I think that is a very--I agree with you. I 
hope I am not hurting your reputation in the legal community, 
but----
    Mr. Sullivan. You have enhanced my reputation, Senator.
    Senator Graham. Well, I am honored that you would say that, 
but I think that is a pretty reasoned view, because I know 
there was a lot of pressure being applied to the Attorney 
General and, quite frankly, the President, and, you know, we 
are talking about trying cases in political arenas, which is 
probably not a good idea. But having victims speak up, having 
mothers speak about losing their children, that is very 
appropriate, and I hope we will listen and learn where we can.
    If you were defending a case like the Trayvon Martin case, 
would you have done similar things as the defense?
    Mr. Sullivan. You will have to be a little more specific.
    Senator Graham. Was there anything wrong about the defense 
in that case, anything unethical?
    Mr. Sullivan. I am not going to charge a fellow lawyer with 
unethical behavior without knowing more. I was deeply troubled 
by the caricature of Trayvon as the personification of a 
stereotype, Trayvon Martin as thug, Trayvon Martin as criminal. 
I was deeply troubled by that overlay over the criminal justice 
system. Whether that violated Florida's professional rules of 
conduct I do not know. I have not studied them with any detail 
in order to make that sort of claim. That I would not have 
done.
    I will say that----
    Senator Graham. Have you ever defended a person accused of 
rape?
    Mr. Sullivan. Personally?
    Senator Graham. Yes.
    Mr. Sullivan. I have.
    Senator Graham. Have you ever questioned the victim?
    Mr. Sullivan. I have.
    Senator Graham. And I guess the point from Ms. Martin's 
point of view, your son was a fine young man. I mean, I am 
trying to sit there and think as a parent, listening to all 
this in court, how I would feel. But I have been a defense 
lawyer, and, you know, the person expects you to vigorously 
defend the interest of the client, and that is why we have rape 
shield laws. We are trying to get that balance between how far 
can you go in attacking the victim to protect the rights of the 
accused. And in terms of the racial implications of that case, 
I think they are raw and are obvious. But, Mr. Lott, it seems 
to be from an objective point of view that ``stand your 
ground'' laws tend to apply--well, most violent crime is within 
the community itself. Is that correct?
    Mr. Lott. That is exactly right, and----
    Senator Graham. I am just trying to come to grips with the 
idea that somehow this law has a racial injustice about it, and 
I--I mean, do you think it does, Mr. Sullivan?
    Mr. Sullivan. I think the way--the impact of the law has a 
disparate racial tilt, and that troubles me profoundly, that 
``stand your ground'' was used in this particular case. If I 
can just amend what Senator Cruz said, it is not entirely 
correct to say that ``stand your ground'' was not part of this 
case. Mr. Zimmerman did not avail himself of the immunity 
portion of ``stand your ground'' law. However, the judge 
instructed, consistent with Florida law, which included an 
express statement of ``stand your ground'' law if you feel that 
you were imminently in fear of death or reasonable bodily 
injury, then Mr. Zimmerman had a right to ``stand his ground 
and use deadly force in response.''
    I may have cited it in my written testimony. If I did not, 
I will provide it to the Chair, the specific jury instruction. 
So ``stand your ground'' was front and center in this case, 
just not the immunity portion of ``stand your ground.''
    Senator Graham. Mr. Lott's rendition of statistics were 
pretty compelling, and I do not claim to be an expert in this 
area. I guess from a politician's point of view, when you have 
people like Governor Granholm and Joe Manchin, somebody I 
actually know, I do not believe in their mind at the time they 
signed these laws into law that they felt that that is what 
they were doing. Can you understand how somebody would come to 
a different conclusion?
    Mr. Sullivan. Oh, of course, and I certainly do not mean to 
claim that the legislature sat down and said, well, let us see 
how we can prejudice minorities in writing these laws. But 
sometimes, because this is a human enterprise, juries are human 
beings, juries carry the baggage, unfortunately, this country 
has sometimes, but the laws express themselves in various sorts 
of ways.
    Now, in terms of the statistics, I spent a lot of time--it 
probably bored your staff senseless--in terms of reading the 
statistical analysis there. You know, with all respect to my 
friend, you ask 10 economists a question, you get 11 different 
responses in terms of what the data means. There is a lot of 
noise, I will say. There is a lot of noise in the data. But 
when you do see examples like Jordan and Trayvon, my only point 
to this Committee and to the American public is that those are 
individuals. They are not data points. They are not statistics. 
They were living and breathing citizens whom we should care 
about. And to the degree that the law produces perverse 
results--and I submit to you that this result with Trayvon 
Martin was perverse. We do not know what is going to happen in 
the McBath case. But to the degree that is even a possibility, 
it is something that we should look at.
    Senator Graham. Well said. And I guess the point about 
trials, having been in court a few times, if you believe that 
Mr. Zimmerman was--that Mr. Martin was on top of Mr. Zimmerman 
inflicting punishment, that would be a different view. If you 
believe that he was just walking to get candy and a soda, which 
he obviously was, you wonder how can somebody be dead because 
of that. And this is so complicated. And the one thing I do not 
want us to do as politicians is to take away the ability of 
when it is your day in court, to avail yourself of a lawful 
defense that has been recognized. And the question for me is: 
Have we gone too far?
    Mr. LaBahn. Senator, thank you for allowing me, because 
that was exactly what I was feeling and wanted to present. 
There has been a lot of discussion of Justice Harlan's Beard v. 
United States, and that is clearly an objective standard. And 
if you look and you say, ``in such a way and with such force 
as, under all the circumstances, he, at the moment, honestly 
believed, and had reasonable grounds to believe, were necessary 
to save his own life, or to protect himself from great bodily 
injury,'' that is exactly the problem, and that is why there 
has been so much prosecutor opposition to this sort of 
direction. The Florida law--and we stand by the verdict. As you 
said, many times there is the disappointment of what happens in 
court I have handled, and I have had ``not guiltys''; that 
occurs. But based upon the law as they drafted it, there it is 
a subjective belief, what did he believe at that time was 
occurring versus it being objective, as well as the immunity, 
and that is when you get trouble. And that is also--in 2007, 
when I was the director of the American Prosecutors Research 
Institute, we published a piece on the Castle Doctrine well in 
advance, and in that piece we were concerned about the racial 
implications because when you go to what that person believes 
and when you have such a heterogeneous population, you do not 
know what that person believes about another individual, 
especially by their skin, their age, whatever that might be. 
And because it is subjective, it allows them to go ahead and 
believe they are under danger and, hence, do the dramatic thing 
of taking a life.
    Thank you for letting me----
    Senator Graham. Thank you.
    Mr. Lott. I would like to make a couple comments. One is, I 
mean, if you actually look at the data, look at the Tampa Bay 
Tribune data there, account for the different factors in the 
cases, you find that minorities, both blacks and Hispanics, are 
much more successful in raising ``stand your ground'' defenses 
than whites are.
    There is another point that needs to be made, and that is, 
the ambiguity. One type of ambiguity has been discussed, but 
there is also the ambiguity that is having to face the person 
who is acting in self-defense. What is an appropriate amount 
for them to go and retreat when they are having to go and 
defend themselves? And the issue here might be who do we want 
to make, have to make--deal with that ambiguity? When somebody 
is facing very quick decisions that they have to make in terms 
of life and death, do we want to make them have to bear the 
burden to try to figure out at that time how far they are going 
to have to retreat, and then make them realize that they may be 
second-guessed. I have an appendix that shows a number of cases 
where they were second-guessed and cases where legislatures and 
others thought that the second-guessing was wrong there. They 
may make it so somebody who really needs to act in self-defense 
is stopped from doing so and thus endangering the safety of 
themselves or their family members that are there.
    And then, finally, Mr. LaBahn, when he was talking about 
being able to go and have the ``stand your ground'' law apply, 
even though you may have been the initial aggressor there, he 
misses part of the law that he quoted, because it goes on to 
say you can use it, but then it puts very strict restrictions 
on how you can use it in that case. It says, `` `Stand your 
ground' law is not available to a person who initially provokes 
the use of force against himself or herself unless, A, he or 
she exhausted every reasonable means to escape such danger 
other than the use of force, which is likely to cause death or 
great bodily harm to the assailant; or, B, in good faith the 
person withdraws from physical contact with the assailant and 
indicates clearly to the assailant that he or she desires to 
withdraw and terminate the use of force.''
    The bottom line, I think, is pretty simple. Under ``stand 
your ground,'' if someone initially provokes somebody else, 
then they are required to retreat.
    Chairman Durbin. I want to thank this panel for the 
testimony and once again thank Ms. Fulton and Ms. McBath. Thank 
you for coming and reliving some very painful moments so that 
we can put this whole hearing into context. I thank all the 
witnesses for your testimony.
    There has been a great deal of interest in today's hearing. 
You can see from the attendance. A large number of individuals 
and organizations have submitted testimony for today's hearing, 
including the NAACP, the Leadership Conference on Civil and 
Human Rights, the American Nurses Association, the Center for 
Media and Democracy, America's Essential Hospitals, the Dream 
Defenders, the American Academy of Pediatrics, the Illinois 
Council Against Handgun Violence, the NAACP Legal Defense and 
Education Fund, the Newtown Action Alliance, Moms Demand 
Action, and many, many more. They will all be included in the 
record, without objection.
    [The information referred to appears as a submission for 
the record.]
    Chairman Durbin. I would also like to say that when 
solicitation was sent out for those members, publicly listed 
members of ALEC to tell me their status or position on this, 
volunteering, if they wished, that information, some asked that 
their statements be made part of the record, and they will at 
their request. Those that did not make that request will not be 
included. Again, I do not want to create any chilling effect on 
participation in American politics. It is important that we 
preserve all of our constitutional rights to do so. But I 
thought it was appropriate to find out if the members of the 
organization stood by that policy position that was stated.
    [The information referred to appears as a submission for 
the record.]
    Chairman Durbin. The hearing record is going to be open for 
one week to accept additional statements. Written questions for 
the witnesses must also be submitted by the close of business 
one week from today. We will ask witnesses to respond to those 
questions promptly to complete the record.
    If there are no further comments from the panel or my 
colleagues, I thank the witnesses for attending and my 
colleagues for participating, and the hearing stands adjourned.
    [Whereupon, at 11:57 a.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC] [TIFF OMITTED] 

                 Prepared Statement of Hon. Dick Durbin

[GRAPHIC] [TIFF OMITTED] 

                 Prepared Statement of Hon. John Cornyn

[GRAPHIC] [TIFF OMITTED] 

          Prepared Statement of Sybrina Fulton, Miami, Florida

[GRAPHIC] [TIFF OMITTED] 

 Prepared Statement of Ronald S. Sullivan, Jr., Clinical Professor of 
Law, Director, Criminal Justice Institute, and Director, Trial Advocacy 
         Workshop, Harvard Law School, Cambridge, Massachusetts

[GRAPHIC] [TIFF OMITTED] 

   Prepared Statement of David LaBahn, President and Chief Executive 
     Officer, Association of Prosecuting Attorneys, Washington, DC

[GRAPHIC] [TIFF OMITTED] 

  Prepared Statement of Ilya Shapiro, Senior Fellow in Constitutional 
                Studies, Cato Institute, Washington, DC

[GRAPHIC] [TIFF OMITTED] 

   Prepared Statement of John R. Lott, Jr., Ph.D., President, Crime 
          Prevention Research Center, Swarthmore, Pennsylvania

[GRAPHIC] [TIFF OMITTED] 
      Prepared Statement of Lucia Holman McBath, Atlanta, Georgia

[GRAPHIC] [TIFF OMITTED] T4124.019

                               Questions


    Questions submitted by Senator Dianne Feinstein for David LaBahn

[GRAPHIC] [TIFF OMITTED] T4124.062

                                Answers

 Responses of David LaBahn to questions submitted by Senator Feinstein

[GRAPHIC] [TIFF OMITTED] 

                Miscellaneous Submissions for the Record


   Rashad Robinson, Executive Director, ColorOfChange.org, Oakland, 
                         California, statement

[GRAPHIC] [TIFF OMITTED] 

                Common Cause, Washington, DC, statement

[GRAPHIC] [TIFF OMITTED] 

 The Center for Media and Democracy, Madison, Wisconsin, Lisa Graves, 
                     Executive Director, statement

[GRAPHIC] [TIFF OMITTED] 
  American Legislative Exchange Council (ALEC), Arlington, Virginia, 
                        letter to Senator Durbin

[GRAPHIC] [TIFF OMITTED] 

 American Legislative Exchange Council, Arlington, Virginia, statement

[GRAPHIC] [TIFF OMITTED] 

                   Coalition letter, August 30, 2013

[GRAPHIC] [TIFF OMITTED] 

 Center for Competitive Politics, Alexandria, Virginia, David Keating, 
                           President, letter

[GRAPHIC] [TIFF OMITTED] 

  Elijah E. Cummings, U.S. House of Representatives, Washington, DC, 
               October 29, 2013, letter to Senator Durbin

[GRAPHIC] [TIFF OMITTED] 

  American Academy of Pediatrics, Washington, DC, September 17, 2013, 
                               statement

[GRAPHIC] [TIFF OMITTED] 

 American Civil Liberties Union (ACLU), Washington, DC, September 17, 
                            2013, statement

[GRAPHIC] [TIFF OMITTED] 

 Amnesty International USA, London, England, United Kingdom, Steven W. 
                 Hawkins, Executive Director, statement

[GRAPHIC] [TIFF OMITTED] 

Alabama Policy Institute, Birmingham, Alabama, Gary Palmer, President, 
                       August 21, 2013 statement


  American Nurses Association, Silver Spring, Maryland, September 17, 
                            2013, statement

[GRAPHIC] [TIFF OMITTED] 

   America's Essential Hospitals, Washington, DC, Bruce Siegel, MD, 
            President and CEO, September 16, 2013, statement

[GRAPHIC] [TIFF OMITTED] 

 Academic Pediatric Association, McLean, Virginia, September 17, 2013, 
                               statement

[GRAPHIC] [TIFF OMITTED] 

          Arizona Coalition to Prevent Gun Violence, statement

[GRAPHIC] [TIFF OMITTED] 

        CeaseFirePA, Pennsylvania, September 17, 2013, statement

[GRAPHIC] [TIFF OMITTED] 

  Center of the American Experiment, Golden Valley, Minnesota, Mitch 
    Pearlstein, Ph.D and Kim Crockett, J.D., August 30, 2013, letter

[GRAPHIC] [TIFF OMITTED] T4124.171

            Chicago Sun-Times, September 27, 2013, editorial

[GRAPHIC] [TIFF OMITTED] 

         Coalition, October 29, 2013, letter to Senator Durbin

[GRAPHIC] [TIFF OMITTED] T4124.174

  CREDO Action, Jordan Krueger, Campaign Manager, September 16, 2013, 
                          letter and appendix

[GRAPHIC] [TIFF OMITTED] 

  Congressional Research Service, Washington, DC, William J. Krouse, 
 Specialist in Domestic Security and Crime Policy, September 16, 2013, 
                                 letter

[GRAPHIC] [TIFF OMITTED] 

  Coalition to Stop Gun Violence, Joshua Horwitz, Executive Director, 
                     September 17, 2013, statement

[GRAPHIC] [TIFF OMITTED] 

Dream Defenders, Ahmad Abuznaid, Legal and Policy Director, October 28, 
                            2013, statement

[GRAPHIC] [TIFF OMITTED] 

          Franciscan Action Network, Washington, DC, statement

[GRAPHIC] [TIFF OMITTED] T4124.201

  Howard University School of Law, Howard Law Students, September 17, 
                              2013, letter

[GRAPHIC] [TIFF OMITTED] 
Illinois Council Against Handgun Violence, Chicago, Illinois, September 
                          17, 2013, statement

[GRAPHIC] [TIFF OMITTED] 
 Iowans for Gun Safety, Des Moines, Iowa, September 16, 2013, statement

[GRAPHIC] [TIFF OMITTED] 
  Institute for Policy Innovation, Lewisville, Texas, Tom Giovanetti, 
                   President, August 13, 2013, letter

[GRAPHIC] [TIFF OMITTED] 

  John M. Phillips, Attorney for the family of Jordan Davis, statement

[GRAPHIC] [TIFF OMITTED] 

     One Million Hoodies Movement for Justice, Amy Frame, National 
           Legislative Director, October 29, 2013, statement

[GRAPHIC] [TIFF OMITTED] 

    Law Center to Prevent Gun Violence, San Francisco, California, 
                     September 17, 2013, statement

[GRAPHIC] [TIFF OMITTED] 

 The Lawyers' Committee for Civil Rights Under Law, October 29, 2013, 
                               statement

[GRAPHIC] [TIFF OMITTED] 

 The Leadership Conference on Civil and Human Rights, Washington, DC, 
      Wade Henderson, President and CEO, October 29, 2013, letter

[GRAPHIC] [TIFF OMITTED] 

Brady Center to Prevent Gun Violence, Jonathan E. Lowy, Director, Legal 
              Action Project, October 29, 2013, statement

[GRAPHIC] [TIFF OMITTED] 

    Million Mom March, Virginia Chapters, Martina Leinz, President, 
         Northern Virginia Chapter, September 13, 2013, letter

[GRAPHIC] [TIFF OMITTED] 
MomsRising, Kristin Rowe-Finkbeiner, Executive Director and Co-Founder, 
                     September 17, 2013, statement

[GRAPHIC] [TIFF OMITTED] 

     NAACP, Hilary O. Shelton, Director, NAACP Washington Bureau, 
              Washington, DC, October 29, 2013, statement

[GRAPHIC] [TIFF OMITTED] 
    ``Florida `Stand Your Ground' Law Yields Some Shocking Outcomes 
   Depending on How Law Is Applied,'' Tampa Bay Times, June 1, 2012, 
                                article

[GRAPHIC] [TIFF OMITTED] 

 NAACP Annual Convention, Eric H. Holder, Jr., U.S. Attorney General, 
                         July 16, 2013, speech

[GRAPHIC] [TIFF OMITTED] 

    NAACP Legal Defense and Educational Fund, Inc., Washington, DC, 
  Sherrilyn Ifill, President and Director-Counsel, October 29, 2012, 
                               statement

[GRAPHIC] [TIFF OMITTED] 

   National Action Network, Rev. Al Sharpton, President and Founder, 
                               statement

[GRAPHIC] [TIFF OMITTED] 

National Taxpayers Union, Alexandria, Virginia, Duane Parde, President, 
                        August 22, 2013, letter

[GRAPHIC] [TIFF OMITTED] T4124.290

The Newtown Action Alliance, Newtown, Connecticut, September 17, 2013, 
                               statement

[GRAPHIC] [TIFF OMITTED] 

          New Mexicans for Gun Safety, Paul Schmitt, statement

[GRAPHIC] [TIFF OMITTED] 

New Yorkers Against Gun Violence, Brooklyn, New York, October 29, 2013, 
                               statement

[GRAPHIC] [TIFF OMITTED] 

    Phillip Atiba Goff, Ph.D., Tenure-Track Faculty, University of 
               California, Los Angeles (UCLA), statement

[GRAPHIC] [TIFF OMITTED] 

            Protest Easy Guns, September 14, 2013, statement

[GRAPHIC] [TIFF OMITTED] 

 John Roman, Senior Fellow, Urban Institute, Washington, DC, statement

[GRAPHIC] [TIFF OMITTED] 

   Institute for Policy Innovation, Bartlett D. Cleland, Lewisville, 
                     Texas, August 31, 2013, letter

[GRAPHIC] [TIFF OMITTED] 

   National Urban League, New York City, October 29, 2013, statement

[GRAPHIC] [TIFF OMITTED] 

  Robert J. Spitzer, Ph.D., Chair, Political Science Department, SUNY 
                     Cortland, New York, statement

[GRAPHIC] [TIFF OMITTED] 

        Sarah Clements, student, Newtown, Connecticut, statement

[GRAPHIC] [TIFF OMITTED]

  Hon. John Cornyn, a U.S. Senator from the State of Texas, statement

[GRAPHIC] [TIFF OMITTED] 

   The Society for the Psychological Study of Social Issues (SPSSI), 
                       Washington, DC, statement

[GRAPHIC] [TIFF OMITTED] 

  States United to Prevent Gun Violence, Barbara Hohlt, contact, New 
                       York, New York, statement

[GRAPHIC] [TIFF OMITTED] 

         Moms Demand Action for Gun Sense in America, statement

[GRAPHIC] [TIFF OMITTED] 
Texas Public Policy Foundation, Dr. Wendy Gramm, Austin, Texas, August 
                            12, 2013, letter

[GRAPHIC] [TIFF OMITTED] 


                                   [all]
                                   


</pre></body></html>
